<html>
<title> - [H.A.S.C. No. 113-30]NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR DEPARTMENT OF DEFENSE (DOD) SCIENCE AND TECHNOLOGY PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 113-30]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                     BUDGET REQUEST FOR DEPARTMENT

                      OF DEFENSE (DOD) SCIENCE AND

                          TECHNOLOGY PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 16, 2013





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-759                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>  









    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDRE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                 Kevin Gates, Professional Staff Member
                 Tim McClees, Professional Staff Member
                          Julie Herbert, Clerk



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, April 16, 2013, Fiscal Year 2014 National Defense 
  Authorization Budget Request for Department of Defense (DOD) 
  Science and Technology Programs................................     1

Appendix:

Tuesday, April 16, 2013..........................................    25
                              ----------                              

                        TUESDAY, APRIL 16, 2013
  FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
      DEPARTMENT OF DEFENSE (DOD) SCIENCE AND TECHNOLOGY PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Intelligence, Emerging Threats 
  and Capabilities...............................................     1
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

Klunder, RADM Matthew, USN, Chief of Naval Research, U.S. Navy...     6
Miller, Mary, Deputy Assistant Secretary of the Army for Research 
  and Engineering................................................     5
Prabhakar, Dr. Arati, Director, Defense Advanced Research 
  Projects Agency................................................    10
Shaffer, Alan, Acting Assistant Secretary of Defense for Research 
  and Engineering................................................     3
Walker, Dr. David, Deputy Assistant Secretary of the Air Force 
  for Science, Technology and Engineering, Office of the 
  Assistant Secretary for Acquisition............................     8

                                APPENDIX

Prepared Statements:

    Klunder, RADM Matthew........................................    87
    Miller, Mary.................................................    61
    Prabhakar, Dr. Arati.........................................   132
    Shaffer, Alan................................................    29
    Walker, Dr. David............................................   103

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Nugent...................................................   147

Questions Submitted by Members Post Hearing:

    Mr. Carson...................................................   156
    Mr. Johnson..................................................   154
    Mr. Langevin.................................................   162
    Mr. Maffei...................................................   159
    Ms. Sanchez..................................................   153
    Mr. Thornberry...............................................   151
 
  FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
      DEPARTMENT OF DEFENSE (DOD) SCIENCE AND TECHNOLOGY PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Subcommittee on Intelligence, Emerging Threats and 
                                              Capabilities,
                           Washington, DC, Tuesday, April 16, 2013.
    The subcommittee met, pursuant to call, at 3:34 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. Let me call the subcommittee hearing to 
order, and let me welcome the distinguished ranking member and 
our witnesses and guests to this subcommittee hearing on DOD's 
[Department of Defense] science and technology programs.
    I don't think any of us need to be convinced that the money 
we spend on science and technology is the basis for our 
country's future security. I was pleased, in the President's 
budget, that if you take these accounts together, at least they 
are basically flat, and not going down. I guess that is looking 
for some good news. But, of course, it is not just how much 
money you spend, it is how you spend it. And those are some of 
the issues that we want to get into with our distinguished 
group of panelists.
    So without going any further, I am happy to yield to the 
gentleman from Rhode Island, Mr. Langevin, for any comments he 
would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
  RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE, 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. Well, thank you, Mr. Chairman.
    And I really do want to thank all of our witnesses for 
joining us today. All of you oversee a portfolio of issues that 
I have particular interest in. And obviously, defense research 
is an area of great importance to all of us, and I know that we 
can all appreciate the benefit of your testimony today.
    The health and vibrancy of our defense science and 
technology enterprise is critical not just to our national 
defense, but to our Nation's innovative edge in the world's 
economy. And I am pleased that the President's budget request 
recognizes this and largely preserves the investments that our 
warfighters will depend on in future years.
    However, I am deeply concerned about the effect 
sequestration is having on our science and technology 
investment base. And I know you all touched on this in your 
prepared testimony, but I would appreciate it if you, in your 
opening remarks, you could speak to the long-term effects of 
sequestration, to the research and development being undertaken 
by the Department, as well as to the longer-term effects on 
your workforce.
    Sequestration is, of course, not occurring in a vacuum. And 
there are compelling longer-term trends toward ever more 
sophisticated technology for our warfighters, requiring ever 
more capable RDT&E [Research, Development, Test, and 
Evaluation] workforce. I believe that DOD has an important role 
to play in responding to those trends across the STEM [Science, 
Technology, Engineering, and Mathematics] spectrum, from the K-
12 education efforts that prepare a pipeline of confident 
operators and maintainers of cutting-edge technology, to the 
basic research that expands our understanding of disciplines 
affecting our national security.
    Mr. Shaffer, you mentioned these challenges in your 
testimony, and I certainly look forward to exploring how 
Congress might assist DOD in addressing those needs. It is 
imperative that, to preserve the vitality of the workforce.
    Similarly, Mr. Shaffer and each of the service 
representatives, I would be interested in an update on your 
examination of laboratory facilities and whether action is 
needed at the congressional level to ensure the vitality of 
those institutions. I would also appreciate an update on the 
Rapid Innovation Program.
    While I know that this is not the venue for detailed 
discussion of your entire portfolio, it certainly would come as 
no surprise to the chairman or to our witnesses that I am 
particularly interested in hearing your comments on just a few 
areas.
    Dr. Walker, Ms. Miller, and Admiral Klunder, you 
highlighted particular efforts within the directed energy field 
that show particular promise, and I would be interested in 
hearing more from my panel on DOD efforts in that regime. I 
would also welcome comment, Admiral, on your development of 
unmanned undersea vehicles, which you and I have had a chance 
to talk about many times.
    And, finally, I recognize you have all highlighted the 
critically important role that cyber innovation plays in our 
defense enterprise. And I look forward to hearing more about 
how the Department's research could result in a stronger 
national defense.
    With that, the DOD/STS [Department of Defense/Science and 
Technology Strategy] enterprise is crucial to our Nation's 
national security over the long term, and I look forward to 
working with the chairman and with all of our witnesses today 
to make sure that we get it right.
    So with that, I thank the chairman for holding this 
hearing, and I yield back.
    Mr. Thornberry. I thank the gentleman. And I would also ask 
unanimous consent that other committee members be allowed to 
participate in today's hearing after all subcommittee members 
have had the opportunity to ask questions. Without objection, 
they will be recognized for 5 minutes after everybody else has 
had a chance.
    Again, let me welcome our distinguished panel of witnesses, 
Mr. Alan Shaffer, Acting Assistant Secretary of Defense for 
Research and Engineering; Ms. Mary Miller, Deputy Assistant 
Secretary of the Army for Research and Technology; Rear Admiral 
Matthew Klunder, Chief of Naval Research; Dr. David Walker, 
Deputy Assistant Secretary of the Air Force for Science, 
Technology and Engineering; and Dr. Arati Prabhakar, Director 
of the Defense Advanced Research Projects Agency and a 
distinguished graduate of Texas Tech University. So if you want 
to know how come she is so smart, it is because of where she 
got her bachelor of engineering degree, just for the record.
    Without objection, all of your written statements will be 
made part of the record. I would appreciate it if you all could 
summarize your comments in approximately 5 minutes. And I would 
be particularly interested in your summary, if you could--in 
addition to talking about the things Mr. Langevin talked about, 
kind of where we are with budgets and what its effects are--
what the budget effects are on your programs, but also talk 
about the trends. What do you see as the changes?
    I mean, we have this hearing year after year. I would be 
interested in what is different, what you see is--where the 
movements are, again, the trends of what we need to keep our 
eyes on.
    And with that, I would turn to you, Mr. Shaffer, for 5 
minutes.

   STATEMENT OF ALAN SHAFFER, ACTING ASSISTANT SECRETARY OF 
              DEFENSE FOR RESEARCH AND ENGINEERING

    Mr. Shaffer. Chairman Thornberry, Ranking Member Langevin, 
members of the committee, I am proud to be here today to 
represent the scientists and engineers in the Department of 
Defense, a group that includes science and technology 
researchers, systems engineers, and developmental test and 
evaluation personnel. And I will try to address the questions 
on the update of the lab facilities, the rapid innovation 
program, and the trends as we go into the question-and-answer.
    Together, the professional scientists and engineers 
conceive, develop, and mature systems early in the acquisition 
process. They work with our partners in industry, academia, 
other Government agencies, and international partners to 
provide unmatched operational advantage employed by the men and 
women of our Army, Navy, Air Force, and Marines, as well as 
allied personnel.
    When we look at the capabilities developed and delivered by 
these people during the wars in Iraq and Afghanistan, I contend 
the Nation has returned good--has received good return on 
investment. Each of my other four leaders on this panel can 
cite capabilities they delivered for the war. I will cite three 
that came out of the Office of the Assistant Secretary.
    We brought forward the mine-resistant ambush-protection 
vehicles, the persistent threat detection systems and 
persistent ground surveillance system tethered surveillance 
systems, and the use of multispectral imagery to detect 
explosives remotely. These three alone greatly enhance the 
safety of our deployed force. We met the demands of an armed 
force at war.
    As we wind down in Afghanistan, the national security and 
budget environments are changing. We are heading into 
uncertainty. The fiscal year 2014 budget request for S&T 
[Science and Technology] is $12 billion, a nominal increase 
from the $11.9 billion requested in 2013. However, it is not 
possible to discuss the 2013 and 2014 budgets without 
addressing the impact of the sequester, which takes about 9 
percent from each of our programs and each of our program 
lines.
    This reduction will result in delay or termination of 
efforts. We will reduce awards. For instance, we will reduce 
university grants this year by roughly $200 million and 
potentially reduce the number of new smart scholarships in 
fiscal year 2013 to zero.
    Because of the way the sequester was implemented, we will 
be very limited in hiring new scientists this year. Each of 
these actions will have a negative long-term impact on the 
Department and national security. While there are budgetary 
pressures, there are new challenges.
    DOD leadership has made a strategic choice to protect S&T 
where possible. We did this to provide options for the future, 
as well as meet new challenges that have technological 
dimensions. These challenges include instability in nations 
like Syria, a state with weapons of mass destruction that could 
fall out of state control; North Korean nuclear weapons coupled 
with a means to deliver them; the emergence of very 
sophisticated anti-access/area denial capabilities in a number 
of nations; the emergence of sophisticated cyber exploitation 
and attack; and the increase in sophistication of advanced 
electronic attack capabilities of some of our potential 
adversaries.
    The challenge is clear, as is the guidance from our 
leadership. The President and the Secretary of Defense depend 
on defense research and engineering to make key contributions 
to the defense of our nation. S&T should do three things for 
national security. First, mitigate new and emerging 
capabilities that could degrade U.S. security. Second, 
affordably enable new or extended capabilities in existing 
military platforms and systems. And, third, develop technology 
surprise through science and engineering applications to 
military problems.
    The Department's S&T programs are focused on meeting these 
goals. We have emphasized cross-cutting programs. For 
mitigation of emerging threats, we have focused S&T programs on 
electronic warfare, counter space, cyber, and countering 
weapons of mass destruction. For affordability, we have an 
initiative called engineering-resilient systems. And in 
developing technology surprise, we have initiatives in 
autonomy, large data, or data to decisions, and human systems.
    While there is very good work ongoing in each of these 
areas, these areas focus the DOD on some of the emerging 
things--emerging technology areas. In summary, the Department's 
research and engineering program is faced with the same 
challenges as the rest of the DOD, but our people are 
performing. We appreciate the support of Congress to let us 
continue to meet the national security needs of the Department 
and the Nation.
    Thank you.
    [The prepared statement of Mr. Shaffer can be found in the 
Appendix on page 29.]

  STATEMENT OF MARY MILLER, DEPUTY ASSISTANT SECRETARY OF THE 
               ARMY FOR RESEARCH AND ENGINEERING

    Ms. Miller. Chairman Thornberry, Ranking Member Langevin, 
and distinguished members of the subcommittee, thank you for 
the opportunity to discuss the Army's science and technology 
program for fiscal year 2014. I have submitted a written 
statement and ask that it be included in the record.
    Over the course of these past 12 years of war, the world 
has seen firsthand the value and impact that technology brings 
to the battlefield and how capabilities enabled by technology 
are critical to our soldiers and their success. The Army 
depends on its S&T enterprise to research, develop, and 
demonstrate high-payoff technology solutions for hard problems 
faced by soldiers in ever-changing, complex environments.
    Uncertainty and complexity are at the heart of the Army's 
challenges. The Army of the future requires solutions that are 
both affordable and versatile and relies on the S&T community's 
contributions to ensure that they remain the most capable in 
the world. We are grateful to the members of this committee for 
your sustained support of our programs.
    The overarching vision for Army S&T is to foster 
innovation, maturation, and demonstration of technology that 
provides increased capabilities for our warfighters. Our 
mission includes a transition of both the understanding and 
knowledge acquired while developing technology solutions, as 
well as the materiel itself.
    While the very nature of S&T puts our focus clearly on 
providing capabilities for the future, we continue to exploit 
opportunities to transition solutions to the current force. Any 
effective Army strategy starts with an understanding of the 
national military strategy, joint warfighting concepts, and 
both current and future threat environments. This strategy has 
expanded our focus from the current fight to the situation at 
Pacific Rim, a situation where we may well face a more capable 
enemy in an environment that is much more contested and 
complex.
    Given the current budget environment and prospects of 
funding in the future, it has become even more important than 
ever that we clearly understand our current capabilities and 
what we need to address ever-evolving threats. With that in 
mind, the Army has initiated a comprehensive strategic 
modernization strategy to better facilitate informed decisions 
based on long-term objectives within a resource-constrained 
environment.
    This 30-year look requires us to think beyond the easy 
answers of just doing what we are doing now but for a bit 
longer. It forces a new look at what else we might need to do. 
The world of 2040, 2045 is clearly not going to look like the 
world today. The threats we face and capabilities needed to 
address those threats may, in fact, look very different. It is 
through this type of lens that we will identify key areas in 
stable investment and those that we will, by necessity, begin 
to take risk.
    In the Army's fiscal year 2014 S&T budget, you see a clear 
move away from investments in advanced technology development, 
budget activity three, and advanced component development and 
prototypes, budget activity four, to comply with the defense 
planning guidance. This resulted in a number of efforts being 
slowed while we reinvested in applied research to facilitate 
that next generation of capability. In addition, you will note 
an increase in efforts to assess our vulnerabilities to 
anticipate threats at both the individual technology level and 
also our integrated systems levels.
    It goes without saying that the underpinning of all Army 
S&T efforts is a strong research program that builds an agile 
and adaptive workforce and technology base to be able to 
respond to future threats. Investments in S&T are a critical 
hedge in acquiring technological superiority, with 
revolutionary and paradigm-shifting technologies. This includes 
the development of the next generation of Army scientists and 
engineers. Investing wisely in people with innovative ideas is 
our best hope for new discoveries to enable the Army of the 
future.
    Sequestration impacts not only our ability to maintain this 
important investment in technology, but also our ability to 
recruit and retain the scientists and engineering workforce. In 
a fiscally constrained environment, we will emphasize S&T areas 
that address truly Army-unique challenges. We will collaborate 
with our Services, national labs, academia, industry, and 
partner nations to solve common challenges. As good stewards of 
the taxpayer dollars, it is critical that we use finite 
Government resources to maximize development of technologies to 
meet Army-unique challenges and constraints. It is important 
that we complement what the private sector is already 
developing and that we leverage the work being done by our 
sister Services and allies. Most importantly, our investments 
must translate into capabilities as we successfully field to 
the Army of the future.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Miller can be found in the 
Appendix on page 61.]

    STATEMENT OF RADM MATTHEW KLUNDER, USN, CHIEF OF NAVAL 
                      RESEARCH, U.S. NAVY

    Admiral Klunder. Thank you, Chairman Thornberry and Ranking 
Member Langevin and our subcommittee members. Thank you.
    It is an honor to report on science and technology efforts 
in the Department of the Navy and discuss how the President's 
fiscal year 2014 budget request supports the Navy and the 
Marine Corps. Our objective is to support a Navy and Marine 
Corps that can operate and prevail in any environment. We work 
directly with the Secretary of the Navy, the chief of naval 
operations, and the commandant to strike the right balance 
between near-term technology innovation and long-term leap-
ahead research.
    The Office of Naval Research, in partnership with the 
Marine Corps Warfighting Lab at Quantico, strives to create 
game-changing capabilities for our sailors and marines, while 
improving system affordability, communication with the 
acquisition community, and constructive engagement with all of 
our stakeholders. We do this with the understanding that anti-
access and area denial threats will continue to increase. Cyber 
war challenges will also only increase and become more complex.
    These are not easy tasks and easy problems. We recognize 
that. And certainly the sequestration has had a dramatic 
impact. This year alone, we terminated 300 university small 
grants, and over 50 percent of our future naval capability 
efforts. But we are up to the task, and we are still making 
progress.
    Furthermore, we are striving to get away from using $3 
million weapons to defeat $50,000 threats. We must get on the 
right side of that equation. And I can report that we have 
weapons in development and being fielded that will allow us to 
reverse that asymmetrical cost advantage that currently is held 
by some of our adversaries.
    The bottom-line imperative for the Department of the Navy 
is, we can't just make hugely effective systems anymore. They 
also need to be extremely affordable.
    With your permission, I would like to highlight an effort 
which has been in the news and highlights recently and a 
specific approach to that effort, and that is our laser weapon 
system, LaWS [Laser Weapon System], as we refer to it, part of 
our solid-state laser maturation effort.
    Energy weapons--and specifically directed energy weapons--
offer the Navy and Marine Corps game-changing capabilities in 
terms of speed of light engagement, deep magazines, 
multimission functionality, and affordable solutions.
    Now, laser weapons are affordable due to the very low 
engagement costs. Right now, we are projecting under one U.S. 
dollar. That is what we have seen, which is critical to our 
current fiscal environment. They are capable of defeating 
adversary threats, including fast boats, UAVs [Unmanned Aerial 
Vehicles], other low-cost, widely available weapons.
    This LaWS system leverages advancements we discovered and 
worked with in the commercial technology for use in rugged, 
robust prototype laser weapon system. It is capable of 
identifying, illuminating, tracking and lasing enemy surfaces 
and air threats. And it works. I can offer that we have been 
thus far 12 for 12 in our prototype testing. We have not failed 
yet.
    If you have seen the news or were able to attend the Sea-
Air-Space last week potentially, you may be aware that the Navy 
is scheduled to install the LaWS system aboard the USS Ponce in 
the Arabian Gulf in early 2014. That harsh and operationally 
important environment will provide us an ideal opportunity to 
evaluate long-term system performance. The LaWS has every 
potential for being an extraordinary success, in terms of 
fielding an effective and affordable weapons system for our 
sailors and marines.
    We will continue to duplicate this kind of success in our 
other S&T areas with our innovative research and disruptive 
thinking. Mr. Langevin, again, you talked about undersea 
vehicles. That is exactly where we want to go with that, sir. 
We are also trying to make existing systems more affordable and 
effective with improved transitions to acquisition programs.
    In that area, we start with the effective evolution of 
current systems. We move to incremental improvements and spiral 
development of known technologies. And then we go on to 
discover disruptive technologies that are a gold standard of 
our Navy and Marine Corps warfighting.
    Our research is both exhilarating and unpredictable. We 
balance a range of complementary, but competing research 
initiatives by supporting advances in established operational 
areas, while sustaining far-reaching, long-term efforts that 
may prove disruptive to our traditional operating concepts.
    I would be remiss, however, if I did not mention the 
stellar contribution made by our entire workforce at the Naval 
Research Laboratory in Anacostia, as well as all the Navy and 
Marine Corps labs and warfare centers around the country. I 
certainly always invite everyone in this room to take advantage 
of that opportunity to go down to NRL [U.S. Naval Research 
Laboratory] firsthand. The work there is absolutely impressive. 
The people are much more so.
    One of our greatest challenges is to recapitalize NRL and 
ensure a continuation of their cutting-edge work. I thank the 
committee for your help in that area and helping us modernize 
our labs. I certainly want to thank you again for your 
support--excuse me--and look forward to answering any 
questions.
    Thank you very much.
    [The prepared statement of Admiral Klunder can be found in 
the Appendix on page 87.]
    Mr. Thornberry. Thank you. And we will, along with you, I 
think, watch how this deployment of the laser goes, because 
like Mr. Langevin, I share his enthusiasm for the potential of 
directed energy of all sorts. And so I appreciate getting 
something out into the field to see how it really works.
    Admiral Klunder. Thank you, Chairman.
    Mr. Thornberry. Dr. Walker.

 STATEMENT OF DR. DAVID WALKER, DEPUTY ASSISTANT SECRETARY OF 
 THE AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING, OFFICE 
           OF THE ASSISTANT SECRETARY FOR ACQUISITION

    Dr. Walker. Chairman Thornberry, Ranking Member Langevin, 
and members of the subcommittee, I am pleased to have the 
opportunity to provide the testimony on the fiscal year 2014 
Air Force science and technology program. This is my first 
chance to address you since I took over as the Air Force 
science and technology executive in August of last year.
    As the nature and sources of conflict throughout the globe 
have become more diverse and less predictable, our Nation 
continues to face a complex set of current and future security 
challenges, many of which are outlined in the defense strategic 
guidance issued by the President in January of 2012. This 
guidance directs a renewed focus on the Asia-Pacific region, as 
well as continued emphasis on our current conflicts. As 
Secretary Michael Donley shared his testimony last week, 
investment in our science and technology base is necessary to 
ensure the future balance of power, and remains in our favor.
    The Air Force fiscal year 2014 budget requests the S&T at 
about $2.3 billion, which is a slight increase over our 
previous year's request. These investments support a robust and 
balanced foundation of basic research, applied research, and 
advanced technology development, or provide for demonstrated 
transition options to support our future warfighting 
capabilities.
    This year's budget request reflects a strong support for 
S&T from our leadership and this challenging fiscal environment 
that we find ourselves. It is a balance across the warfighter's 
needs, from near-term, rapid-reaction solutions, midterm 
technology development, and revolutionary far-term 
capabilities.
    The Air Force has matured its S&T planning process a great 
deal over the past few years, improving our alignments between 
the science and technology and the capability gaps that are 
outlined in our Air Force core function master plans. The 
established S&T planning and governance process ensures that 
S&T investments are well understood, structured for success, 
and poised for transition when completed.
    This process is the backbone of the Air Force S&T 
contributions to the larger DOD priorities and strategies and 
has provided us an opportunity to be the lead for some of the 
Department's research and strategy planning efforts, in 
particular in cyber, autonomy, electronic warfare, and in 
manufacturing technology. I would like to highlight a few of 
those.
    The importance of the dominance in cyberspace to me cannot 
be overstated as the foundation for the global vigilance, 
reach, and power. The Air Force has placed a great deal of 
emphasis on cyber S&T to overcome threats and have provided 
systems and methods that are affordable and resilient.
    The chief scientist at the information directorate at the 
Air Force Research Laboratory in Rome, New York, has been 
charged to chair the collaborative joint cyber S&T roadmapping 
effort for DOD based on the laboratory's history of exceptional 
cutting-edge research in cyber.
    Using the Air Force's Cyber Vision 2025 as a blueprint, we 
have developed and are executing our Air Force cyber S&T 
strategy. The pivot of emphasis to the Asia-Pacific region 
means that missions with the expanded duration, intermittent 
communication disruptions, and a large array of asset 
capabilities, as the lead for the cross-service autonomy 
steering group, and as an active member of the human systems 
steering group, the Air Force is conducting state-of-the-art 
research in both human systems and human performance to better 
enable warfighters to enhance military capabilities, as well as 
to enable autonomous systems to extend human research providing 
potentially unlimited persistent capability.
    The envisioned security environment of the future will also 
require military aircraft to operate in highly contested 
environments. Manipulation of the electromagnetic spectrum can 
help us negate the integrated air defenses of our adversaries.
    As the lead for the Department of Defense's Electronic 
Warfare Priority Steering Council, the Air Force is 
facilitating the roadmapping effort for research and 
revolutionary new technologies and techniques to be effective 
in the ever-evolving electronic warfare threat, providing the 
ability to operate in the anti-access, area denied environment.
    The Air Force also leads the Department of Defense 
development and demonstration of technology solutions to 
decrease manufacturing risks and increase weapons affordability 
in the aerospace, propulsion, structures, and ISR 
[Intelligence, Surveillance, and Reconnaissance]. The Nation 
can build more capability and lean more fighting force by 
developing a much more efficient and responsive manufacturing 
and industrial base than we currently have today.
    We are exploring strategic issues and opportunities for 
moving the manufacturing considerations earlier in the design 
cycle to reduce acquisition costs and risks, to enable 
streamlined--or seamless life-cycle, value-stream management 
and integrated industrial base enterprise to identify and react 
to supply-chain issues.
    Our S&T portfolio has emphasized areas of great promise, 
and we continue to invest in adaptive engine technologies to 
provide better fuel efficiency and performance. We have 
emphasized research in hypersonic technology to provide 
capability to counter adversary anti-access and area denial, to 
actively engage time-sensitive targets, and to overcome the 
challenges of distance and time as we shift our focus to the 
Pacific.
    Finally, we have built on our successful flight test of the 
counter-electronics high-powered microwave advanced missile 
project, or CHAMP, and continue to develop the direct energy 
capabilities to defeat our adversaries' electronic systems on 
the ground.
    While there are still uncertainties with sequestration and 
the impacts are yet to be seen, I believe this budget reflects 
the promise of the future of warfighting capability and enables 
technology that will be with us--worth the investment placed in 
it.
    Mr. Chairman, I thank you and the committee again for the 
opportunity to testify today, and thanks for continued support 
for the Air Force S&T program.
    [The statement of Dr. Walker can be found in the Appendix 
on page 103.]

 STATEMENT OF DR. ARATI PRABHAKAR, DIRECTOR, DEFENSE ADVANCED 
                    RESEARCH PROJECTS AGENCY

    Dr. Prabhakar. Thank you, Mr. Chairman, Mr. Langevin, 
members of the committee. It is a great pleasure to be here 
with you today.
    DARPA's [Defense Advanced Research Projects Agency] 
objective is a new generation of technology for national 
security. Now, actually getting this new set of military 
capabilities is going to require a lot of work with a lot of 
different organizations, certainly my colleagues in the Service 
S&T organizations, but also our universities, companies large 
and small. Ultimately, it is going to be our warfighters who 
take the technologies that we deliver to them and implement 
them and turn them into real military capability.
    DARPA's role in all of that is to make the pivotal early 
investments that change what is possible for the future, the 
investments that really let us take big steps forward in 
capability. That is what we have done over our 55-year history, 
and that is what we are working on for the next generation.
    So what can that next generation of military capability 
look like? That is the question that shapes our portfolio of 
investments at DARPA, and today it means that we are building a 
future where our warfighters can use cyber as a tactical tool, 
fully integrated with the kinetic fight. We are building a new 
generation of electronic warfare that can leapfrog what others 
around the world are doing with globally available technology. 
We are investing in a new generation of position, navigation, 
and timing technologies so that our people and our platforms 
don't have to continue to be dangerously reliant on GPS [Global 
Positioning System] as they are today.
    We are investing in new approaches for space in robotics, 
in advanced platforms, and new weapon systems, and beneath all 
of these activities, we are building a new technology 
foundation, as we invest in some of the emerging areas within 
software and materials and advanced electronics, and now adding 
to that some of the new technology areas that are emerging from 
the biological sciences, as well.
    So if we are successful in that enterprise, our success 
really will mean that in the future our future leaders and 
commanders will have really powerful options, real options to 
deal with whatever threats our Nation faces in the years to 
come, and that really is what is going to allow us to advance 
our nation's strategic interests in a decisive way. That is 
really what we are striving for.
    So--and I am very happy to talk--those are my favorite 
topics. I would be happy to talk about any of them in greater 
detail. But I also want to take a minute and talk about what it 
is going to take for DARPA to be able to deliver on this 
critical mission. And as you all well know, it takes resources, 
both funding and people, and with that, a stable, long-term 
commitment to these long-term objectives.
    We have been so fortunate to have that kind of strong 
support from the leadership in our Department from across 
Congress. And I especially want to thank this committee for the 
support that you have provided for our budget over many years 
and in particular the work that you have been doing to give us 
flexible hiring authorities.
    Last year, you expanded the number of 1101 flexible hiring 
slots that our agency has. I want you to know that that is 
absolutely essential to our ability to hire the stellar program 
managers that we need. They spend about 3 to 5 years at DARPA. 
We draw from some of the best organizations in the technology 
community across the country, and we simply couldn't get the 
people that we need without the kind of authorities that you 
all have supported so vigorously, so I very much have 
appreciated that.
    Now, the bad news, of course, is that sequestration is 
undermining what is otherwise this very strong support 
environment that we live in. Like others in fiscal 2013, we are 
taking cuts across each of our program elements. It amounts to 
about 8 percent per program element at DARPA. Our civilian 
Government employees, all of us will be participating in the 
Department-wide furlough, as well.
    And, you know, just to cut to the chase, for our program 
managers, what those impacts mean, these are people who have 
come to DARPA for a short time to do something big. And when 
they see these program delays, when they are told under 
furlough that, you know, you can't work 1 day a week for that 
furlough period, those are enormous negatives for these driven 
individuals.
    So obviously, this one-time hit through sequestration has 
real consequences. It does not destroy--you know, it is not a 
death blow to our ability to accomplish our long-term mission. 
But it is corrosive, and if it continues, it will--this kind of 
action does, in fact, erode our fundamental ability to perform 
our mission.
    Let me just end on a personal note. I returned to DARPA 
after 19 years last summer, after spending a number of years in 
other positions, primarily working in the commercial sector. I 
came because of DARPA's off-scale impact, and I came because I 
knew that we needed to invent this new generation of 
technologies to reinvent, once again, how we keep our country 
secure.
    And I came for the privilege of leading this unique 
organization, where despite all of the challenges that we have, 
our people are still running to work every morning with their 
hair on fire, because they know they are part of a mission that 
really matters. I really want to thank this committee for your 
focus on these issues and for the longstanding support that 
allows us to do this work.
    Thank you. And I am very happy to answer questions with my 
colleagues.
    [The prepared statement of Dr. Prabhakar can be found in 
the Appendix on page 132.]
    Mr. Thornberry. Thank you. I appreciate all the comments 
all of you have made.
    I apologize, too. I am going to have to leave in a few 
minutes. I have been drafted to go help moderate a 
cybersecurity classified briefing for all House members, so I 
am going to submit my questions in writing to you and yield to 
other members.
    And I will yield the first 5 minutes to Mr. Gibson.
    Mr. Gibson. Well, thanks, Chairman. And I appreciate the 
panelists being here today.
    My questions have to do with nanotechnology, and I would 
like to hear, first, from our director from DARPA about where 
you are going, in terms of future for nanotechnology, and then 
I would love to hear from Mr. Shaffer, too, in terms of how you 
are managing this from the vantage point of the DOD, with all 
the disparate and exciting projects that are under way in every 
regard.
    Dr. Prabhakar. Thank you for the question. You know, 
nanotechnology investments over the last decade or two have 
given us a set of tools that we find we can now apply in a host 
of different areas. So just simple examples. One of the areas 
where we now have the ability to make structures that are very 
fine, very regular, very controllable, some of those 
applications tie back to what I was saying about position, 
navigation, and timing.
    So we have been able to make very sophisticated IMUs 
[inertial measurement units], navigation units, on a small 
chip. We have been able to use that nanotechnology--fabrication 
technology, in that case--to shrink devices that are vast and 
consume a lot of power to a size that allows them to be 
embedded in much smaller platforms and really gives us the 
ability to maintain position information over a much longer 
time, and that is just one of a very wide range of new 
capabilities that come as we--you know, as nationally we have 
developed our muscle in nanotech.
    Mr. Gibson. I appreciate that. And as a former infantryman, 
I think there is tremendous possibility here in terms of it 
being lighter, more durable, more effective, so I have been 
following with keen interest the research that is coming out of 
your organization, very encouraged.
    Mr. Shaffer. So I am going to try to keep this from being a 
bureaucratic answer, because I hate bureaucratic answers. My 
job is to try to get the program aligned across all the 
Department's components. To that end, we have set up a series 
of--I would call them committees, but they are more than that. 
You heard some of our folks talk about them. SES members from 
each of our components with a major investment in an area like 
materials come together and plan out their material program, 
which includes nanotechnology.
    These are co-led by our folks, my folks in OSD [Office of 
the Secretary of Defense] and the Services, typically the 
Services. The material sciences is led by Dr. Julie--and I am 
going to butcher her name--Christodoulou from the Navy, but she 
gets together with the SES-level folks in charge of materials 
and nanoscience and plans out and integrates their program, so 
we try to drive down duplication, but we are also going after 
those things that will matter.
    As a former airman who spent 5 years on the ground with the 
Army, I absolutely will tell you, I wanted lighter equipment 
when I was out there. That is one of the promises of 
nanotechnology. Higher energy density is a promise of 
nanotechnology. Small lightweight machines--and there are 
miracles happening every day at DARPA and in our Services 
focused on specific technologies. My job is to try to get the 
programs knitted together. And I think we are doing okay with 
that.
    Services, anything you would like to say?
    Admiral Klunder. I can only add, Al, sir, that the 
commandant of the Marine Corps, lightening the load is 
absolutely one of his priorities from the infantry standpoint, 
the Marine standpoint. And my colleagues, DARPA and the 
Services, we have seen great collaboration there. An area of 
specific interest from our standpoint was on our electronic EW 
[Electronic Warfare] sensors. As the nanotechnology has shrunk 
considerably, we have now had wide bandgap spectrum apertures 
that give us much smaller size. It can be on a Jeep, it can be 
on an infantryman, and it can be on a ship. It gives us that 
ability not only a communication aspect, but, again, clearly on 
a defensive or offensive aspect, so we are right behind you, 
sir, on that.
    Mr. Gibson. Well, I appreciate the commentary. And the 
reason why I am asking about the management of it is, is as 
exciting as this field is, you know, it--the challenge is 
really sort of harnessing the synergy across the Services. It 
is why I was curious--you know, Senator Gillibrand and I, going 
back a couple years ago, we raised the possibility of perhaps a 
clearinghouse for this, the possibility of an FFRDC [Federally 
Funded Research and Development Center], and so--you know, I am 
just reengaging again what that possibility, certainly open to 
hearing all sides on this. But in the interests of time, looks 
like I am about out here, but this is a topic I would like to 
continue to dialogue about.
    Mr. Gibson. Thank you. And I yield back, Mr. Chairman. 
Thank you. And I thank the ranking member, as well.
    Mr. Thornberry. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    So I had several questions that I would like to get to, but 
let me start off with this. Defense Secretary Hagel told the 
House Appropriations Subcommittee on Defense this morning that 
there is a major reprogramming request on the way. And 
obviously, while we have to certainly cover the costs incurred 
by operations overseas and maintain our faith with our troops, 
I am very concerned that the S&T investments that we are 
depending on to enable our future force could pay a 
disproportionate cost under such a request.
    And while the weapons procurement can run into the hundreds 
of millions per system, $100 million in the S&T world could 
mean dozens of promising programs that enable future 
capabilities. So could you describe to the subcommittee, to the 
extent that you are able, at least, what the impacts of the 
S&T--what would be the impacts to the S&T enterprise of this 
reprogramming, I should say?
    Mr. Shaffer. Sir, let me take that one on first from a 
Department level. Obviously, we can't talk about the details of 
the reprogramming going on. What I can tell you is that we are 
at a very fortunate time now. I have worked for both Dr. Carter 
directly, the deputy secretary, and Mr. Kendall, and they both 
very much understand the value and the long-term commitment to 
science and technology.
    So as of right now, I don't think that there is a wholesale 
rush to trade in science and technology for operations and 
maintenance. There will be some pressure. We have a situation 
right now where, for a number of reasons, we have underfunded 
the troops that we are--that are deployed supporting our 
Nation. But right now, we are very fortunate with the 
leadership in the Pentagon, between Mr. Kendall, the under 
secretary of acquisition, technology, logistics, and Deputy 
Secretary Carter, that they understand that science and 
technology needs a long-term stable base and were--I will tell 
you that I am using that too every chance I can get.
    Mr. Langevin. Anybody else?
    Ms. Miller. Sir, speaking for the Army, I can echo what Mr. 
Shaffer said. The Army leadership understands the value and 
importance of the science and technology investments and are 
protecting it this year.
    Admiral Klunder. I can offer, we are very fortunate OSD is 
the lead, that as it came down to the Department of the Navy, 
the Secretary of the Navy, the commandant, and the chief of 
naval operations, that is exactly, sir, how we were able to put 
that LaWS system out on the USS Ponce, because of that kind of 
commitment, and we are very fortunate, indeed, that we have got 
the leadership that supports innovation in science and 
technology.
    Dr. Walker. And the Air Force leadership is exactly the 
same. They have been trying to protect science and technology 
through this process. As we go through the remainder of fiscal 
year 2013, we will see, as pressures continue to build, but so 
far we have had good support.
    Mr. Langevin. Let me turn my--I still have time--so in the 
area--one of my favorite topics, cyber, obviously, in the area 
of interest for myself and the chairman, where do you see the 
research and development in the cyber arena heading in the near 
and midterm? And are we adequately postured to address those 
challenges in the S&T community?
    Dr. Prabhakar. I will be happy to start, and then others I 
am sure will have others to add.
    Our focus at DARPA in cyber, very similar to other things 
that we do. You know, ours is not an operational 
responsibility. Our question is, how do we shift the trajectory 
we are on to one that is more advantageous to us in the future?
    And I would characterize the trajectory that we are on 
today in terms of cybersecurity as one in which we patch and 
pray, we see an attack, we patch it up, and we hope that is 
enough, and then we wait for the next attack to come. That is 
pretty much all we really have to go with.
    It is very human-intensive. And we are scrambling, as you 
see to hire quickly enough the people that can keep up with the 
threat as it continues to accelerate.
    We are looking for a fundamentally different way to think 
first about cybersecurity on the defense side, but then also 
how to think about cyber offense in a new way. The core idea in 
both cases is to automate and get beyond needing to scale 
manually to deal with the challenges that we have.
    In the case of cybersecurity, we have a series of programs 
that are trying to find more fundamental ways to build 
inherently secure systems or to interrogate legacy systems and 
understand what level of security they actually have. In terms 
of cyber offense, we aim to create a capability that allows 
cyber offense to become fully integrated with the way our 
warfighters fight in kinetic terms, so that instead of being 
something off to the side, it is really part of how an 
engagement takes place the way electronic warfare, if you like, 
is really fully integrated with the kinetic fight today.
    So, you know, that is--those are the visions that we have 
about where cyber could be that I think would put our country 
in a much more advantageous position, and that is the focus of 
our investments today.
    Mr. Langevin. Thank you. Well, I have other questions, but 
my time is expired. I will yield back.
    Mr. Thornberry. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Ms. Miller, I--in your testimony, I--you talk a little bit 
about continued developments in finding lighter, more capable 
armor solutions. So could you describe the Army's effort with 
silicon nitride?
    Ms. Miller. Yes, ma'am. Currently, at the Tank Automotive 
Research Development and Engineering Center, we are 
investigating armor solutions for tactical vehicles. We have a 
tactical vehicle armor program. We are currently looking at six 
different vendors, two of which are Government, four of which 
are actually commercial. They are competing their armor 
solutions. We are making them comply to the long-term armor 
strategy criteria.
    We will down-select to two vendors that will then go 
forward for maturation--further maturation of the armor design 
in the end of fiscal year--this fourth quarter of fiscal year 
2013. The silicon nitride is one of those armor solutions that 
is being pursued.
    Mrs. Hartzler. Great. Is it a potential solution over steel 
and some of the other metals used today, are you seeing so far 
you think might have potential?
    Ms. Miller. Right now, it is not meeting the criteria of 
the long-term armor strategy, but they have been--the folks 
that are doing the silicon nitride work have been modifying 
their formulation of the armor, and then we are retesting. We 
expect more samples to come in and to retest against our 
criteria.
    Mrs. Hartzler. Yes, that is, I think, very, very exciting. 
The tactical vehicle armor development program, you know, will 
not only benefit the warfighter by reducing the armor weight 
used in tactical vehicle platforms to increase survivability, 
as well as mobility. Do you believe that the current funding 
for the TVAD [Tactical Vehicle Armor Development] program is 
adequate to meet the needs of the warfighter?
    Ms. Miller. Yes, ma'am. I believe the funding is adequate. 
We have armor development that exists at the Army Research Lab 
for fundamental armor design, modeling and simulation. We do 
maturation at the Tank Automotive Research and Development 
Engineering Center, TARDEC [Tank Automotive Research, 
Development and Engineering Center], and we do believe we are 
adequately funded.
    Mrs. Hartzler. Okay. I think it has a lot of exciting 
potential there.
    Admiral Klunder, in your comments, you talked about the new 
laser systems, the 12 for 12 testing. I thought that was very, 
very exciting. I haven't read up on it as much as perhaps some 
of the others, but can you explain a little bit more about how 
that would work?
    Admiral Klunder. Yes, I can. Thank you. The significance 
that we always look at is in terms of the risk of the 
development, and we started out in a very dry desert 
environment. But we are in the Navy and the Marine Corps, and 
we are out in the ocean. We are out on the high seas. And that 
is a very difficult maritime environment.
    And why do I bring this up? Our first phase was in the 
desert. We then moved out to the Pacific Ocean off of the 
California coast. And then our final test was recently done on 
USS Dewey, and that is a just regular destroyer down at the 
pier in San Diego. And why I bring that up is, if we didn't 
functionally change the ship, if we hadn't put this prototype 
laser system on the USS Dewey--and, again, off the California 
coast, is a very successful, went three for three shooting down 
UAVs.
    The reason why we are now excited about moving it out to 
the Fifth Fleet area of operations in the Arabian Gulf area is, 
again, it is a very harsh environment, very dynamic 
environment. We are obligated to our Nation to protect our high 
seas for the commerce of our country, our national security, 
and we think that is a very good place to put this out there 
and let some sailors look at it, test it, see if there is any 
lessons we learn, and then if we do, we will bring them back 
and roll them into our follow-on upgraded systems, if that 
helps.
    Mrs. Hartzler. Yes, it is very exciting. And appreciate all 
that you do there for our national defense. Thank you.
    I yield back.
    Mr. Kline. [Presiding.] Mrs. Davis.
    Mrs. Davis. Thank you. And I appreciate all of you being 
here with us today.
    Dr. Prabhakar, you mentioned the impact of furloughs, and 
certainly our civilian workforce, Federal civilian workforce, 
which in many ways I think has been maligned of late, but I 
wonder if you spoke about the fact that a number of people may 
come in from the private sector and they are with us for a 
relatively short period of time, and the other issue really is 
one of just patience. You need a timeframe when you are working 
with research and development.
    Are there some areas particularly that you are worried that 
that will impact more than others? Is it--does it relate to the 
warfighter? What does it relate to that we should, you know, 
anticipate and be some concerned about?
    Dr. Prabhakar. Specifically, from the furlough impact?
    Mrs. Davis. Yes.
    Dr. Prabhakar. Right. So the one-time financial hit from 
sequestration, because it is across the board, really affects 
each of our programs pretty broadly, so across DARPA, about 100 
of our programs were affected. The net effect really is, you 
know, at the specific contract level, there are universities 
and companies large and small that are finding out that a 
contract they thought was about to get signed has gotten pushed 
off or has now gone away. There are efforts that are under way 
where, you know, the funding isn't going to show up as 
predicted.
    We have worked very, very hard to minimize the impact as 
much as we can, but at that--you know, at the level that we are 
dealing with in fiscal 2013, we do start to see real 
consequences.
    One example is Plan X, which is our cyber offense research 
program. That is a program that is taking a pretty significant 
hit in fiscal 2013. Because it is a relatively new program--we 
were just getting it under way--there we chose to take a delay 
of about 4 or 5 months, rather than having to stop a bunch of 
things that were already fully ramped up and under way in other 
programs.
    So the consequence on that area will just--it will simply 
translate to later, you know--essentially, the schedule for 
starting to deliver some of those capabilities to our service 
partners who have expressed a lot of interest, simply keeps 
pushing to the right.
    I want to mention one other thing. You know, the other 
place that we are seeing a lot of impact from furloughs and 
sequestration is the fact that we work so closely with our 
service partners. Our contracting times are pushing out, 
because we are relying on contracting capability in the 
Services.
    Mrs. Davis. Yes, I was going to ask--actually ask, not just 
with the Services, but also across the board, and, you know, 
the whole-of-government approach, because my guess is that they 
also will be impacted. And whether it is working with homeland 
security or commerce or ag [Department of Agriculture], 
whatever that may be, where you interface are--is that another 
area that you anticipate that there is going to be a 
considerable impact? Or, you know, is it--probably won't have 
as great a concern as perhaps working within the Services, in 
terms of the job that you all do?
    Mr. Shaffer. So we are still really assessing the impact of 
the sequestration. I don't want to let Arati's final--or 
comment about contracts go without adding some additional 
context. Without getting into specific services, each week, Mr. 
Kendall gets a report on what is the impact of sequestration.
    So there is a double hit with our contracting officers, 
because most of our contracting offices were undermanned to 
begin with and people were being paid overtime. So it is not 
just going to be a 10 percent or 20 percent reduction. It is 
going to be more like a 40 percent reduction, because people 
will not get their overtime pay.
    So contracting officers were working average 50- to 60-hour 
weeks, our junior level contracting officers. That will stop. 
That means that we are going to have a tremendous slowdown in 
being able to get money on contract. That will have a trickle-
down effect to our subtier suppliers, our small businesses, and 
we don't know the impact of how that will play out. But it will 
hurt our subcontractors, our big contractors, and will hurt the 
people who come in and try to make things happen for the 
Nation.
    Mrs. Davis. I appreciate that. It is certainly a great 
concern. And I see, Ms. Miller, you had a comment.
    Just on a slightly different note, I know that we are 
trying to consolidate some of the STEM programs, and the DOD 
was responsible for doing--I guess it is small grants, having 
some programs around, and now we are consolidating that more 
under the Department Ed [U.S. Department of Education]. Do you 
see that that is going to be impactful in terms of schools and 
some of the programs? Is there a way to minimize the effect of 
that kind of focus, which probably has a very positive effect, 
but may, in fact, have some consequences in terms of the ed 
programs? It is now under Department of Ed, but----
    Mr. Shaffer. Frankly, ma'am, the Administration believes 
that there will be efficiencies in consolidation of some of our 
STEM programs. There was a meeting at the White House this week 
of the principals, and they are trying to figure out how to 
fully implement that. We have until 2014 to figure out 
implementation.
    I will tell you that STEM writ large is incredibly 
important to ourselves, to everybody on this panel. Preserving 
the workforce of the future is incredibly important. 
Unfortunately, last week, I had the privilege or--whatever you 
want to say is spending a week with our under secretary, Mr. 
Kendall, and he made sure that I understood that STEM programs 
would continue to be one of his highest priorities.
    That is our future. And there are a number of disciplines 
where the DOD leads the Federal investment. We cannot allow and 
we cannot cede things like electrical engineering, mechanical 
engineering to other agencies. We are working with the White 
House and the Administration to try to get it right.
    Mrs. Davis. Okay, thank you.
    Thank you, Mr. Chairman.
    Mr. Kline. I thank the gentlelady. Your time is expired.
    I do think it is interesting, when we look at STEM 
programs, the Federal Government, as of a report a little more 
than 2 years ago, has 209, and that is growing. It does seem to 
me we could get just a little bit more efficiency out of those 
programs, so I am delighted to hear that somebody in the 
Administration is thinking about cutting that down, presumably 
to something less than 209.
    The President's budget assumes that sequestration 
disappears, but it is the law. And so in a hearing today, we 
were talking to the CNO and to the commandant and to the 
secretary of the Navy, and they were, again, saying that the 
President's budget doesn't show sequestration numbers, but all 
of you have talked about the dire consequences of 
sequestration.
    And then, Mr. Shaffer, in the President's request, I am 
looking here, I see there is a new defensewide program element 
called Applied Research for the Advancement of S&T Priorities, 
$45 million in new money. So we don't have any money, and it 
looks like we are going to have less money because of 
sequestration. And yet you have a brand-new program element for 
$45 million. What does it do that is worth more money, when we 
have all these other programs, and not to mention individual 
projects that may go away? Tell me about that investment.
    Mr. Shaffer. Yes, sir. I am happy to. So we actually took 
three, six, eight old programs and consolidated them down to 
one, because we believe in OSD in the power of competition. 
What that program element will do--and you heard us talking 
about some of these panels with SES leads in materiels and 
human sciences and data to decisions.
    Each of those panels now, that pot of money will be up for 
bid by these cross-cutting groups who want to do specific 
competitive ideas to prove out some concepts to move forward 
and move forward more rapidly. So rather than breaking things 
down into little stovepipes and telling this community, ``You 
are going to have your $5 million,'' another community, ``You 
are going to have your $5 million,'' this $45 million bundled 
up old programs, and the concept now is we are going to have 
our cross-cutting panels compete and fund the very best ideas. 
So we want to fund the best ideas, not just tell folks they are 
going to have money just because they wake up and breathe.
    So there will be small projects, but it will allow us to 
consolidate, coordinate, and make much more rapid progress, I 
think, in the cross-cutting areas that I mentioned, electronic 
warfare, cyber, EW. That is the concept. It is not new money; 
it is a consolidation and redirection.
    Mr. Kline. So a new program element, but old money that has 
been rolled together?
    Mr. Shaffer. Yes, sir. Yes, sir.
    Mr. Kline. That is somewhat reassuring, because every time 
I see now a new program, and they are all over the place--the 
President has a $75 billion new dollar program in education----
    Mr. Shaffer. Sir----
    Mr. Kline. So my--thank you for that answer. And, by the 
way, thank all of you for your terrific work. Some of you I 
have known for some years. Some of you I have known for many 
years, particularly people sitting in the back rows back there, 
and there has always been a very soft spot in my heart for 
research and engineering for the DDR&E [Department of Defense 
Research and Engineering], for DARPA going back to the days of 
Vic Reis.
    So thank you for the great work that you are doing, and I 
hope that you are getting at the questions that will come a 
couple of ways, of looking at how you are going to set 
priorities under a sequestration number, because while I think 
virtually everybody on this subcommittee and the larger HASC 
[House Armed Services Committee] would like to see 
sequestration go away so we can set real priorities, it is the 
law, and we need some--a serious look at it from everybody, but 
certainly from you.
    Mr. Langevin, you had some more questions, I think.
    Mr. Langevin. Thank you, Chairman.
    So I know we have talked a lot about directed energy here 
today, and I would--you know, I do--I am definitely pleased 
that there has been substantial investment across the DOD in 
promising areas of directed energy research. But can you speak 
to the coordination of these investments across the S&T 
enterprise? And how is funding prioritized?
    I mean, I am, you know, very much interested in getting the 
stuff out of the labs and actually getting it in the field, 
and, you know, the scientists tend to, you know, research this 
stuff to death, and yet--you know, according to the Center for 
Strategic and Budgetary Assessment, you know, this technology 
has progressed a lot further than what many realize and it is 
time to start fielding these things. So I want to know how you 
are coordinating across the enterprises.
    Admiral Klunder. I can certainly take the first crack at 
this. And I will offer, the collaboration has been extremely 
valuable. I will look to my colleague at the right, the Army. 
In terms of their ground-based vehicles, they started some of 
the power source development for the laser system. My colleague 
to the left, Dave Walker and the Air Force, looked at a lot of 
the SWAP, the size, weight and power constraints that we have 
developing that power when they looked at their airborne 
aspects.
    My colleague to the far left, Arati and I, are actually 
working on a higher level power source as we speak. The one 
that you are going to put--see on the USS Ponce is a certain 
level. We know that there is other aspects when we look at 
larger multi-mission aspects, I mean, the very, very 
sophisticated ones in a more classified venue, that we would 
certainly love to come talk to when you are--it is convenient. 
We need some additional power requirements that we are looking 
at and working together on.
    So I think cooperatively there, I think the four of us--and 
then working through OSD is hugely supportive. I think that has 
been a success story of this one particular aspect, just one. 
There are others, obviously. I can pass to my other colleagues 
if they----
    Ms. Miller. Sir, I would like to add that the Army's laser 
is a joint high-power solid-state laser that was collectively 
developed with the High Energy Laser Joint Technology Office 
funding, Army funding, and then some funding in addition from 
the Air Force and the Navy, working on getting 100 kilowatt 
solid-state laser. That particular laser, while it was a 
laboratory design, the Army has put out at White Sands and is 
using with some beam apertures out there to actually do real-
time testing of that laser in an environment to see what it can 
do.
    As the Navy reported, we are also having great success in 
bringing down UAVs, but they are relatively easy. Our big 
target, we are trying to shoot down mortars and missiles, and 
we just this weekend shot down a 60-millimeter mortar with that 
laser.
    Meanwhile, we understand that is a laboratory laser, and it 
certainly is not one that we will put on ground vehicles and go 
out and use. We are working on fiber laser development, again, 
collaboratively, with the High Energy Laser Joint Technology 
Office, the Navy, and the Air Force to create a fiber laser 
capability with much more efficiency. Solid-state lasers are 
about 10 percent efficient. Fiber lasers, over 25 percent 
efficient. And we are pairing it up with a beam--a mobile beam 
director so that we can then put it on a ground vehicle.
    Dr. Walker. And the Air Force, as you have heard, has been 
working closely with the other two Services and with DARPA in 
developing our laser technology, both in the devices and the 
power sources for them. And the step forward that we are going 
to now is taking advantage of the work that has been done by 
the other Services and DARPA and taking it up to a mountain 
peak and shooting down to do what is of interest to the Air 
Force, is how do we mount this on an airplane and make it into 
a usable system?
    And so we are currently starting--the first step is to take 
it and do the downward shot from a mountain peak and then be 
moving that to an aircraft, would be the next step.
    Mr. Langevin. Well, it is encouraging that this isn't 
siloed, and that there is good collaboration across the 
Services. So, finally, a question I have, as you know, the 
subcommittee has authorized several pieces of legislation over 
the past 5 years intended to improve the health of the labs. 
Section 219 of the fiscal year 2009 NDAA [National Defense 
Authorization Act] authorized the use of funds to support 
various local initiatives. We also authorized and raised the 
spending limits of the Laboratory Revitalization Demonstration 
Project, which is intended to support minor MILCON [Military 
Construction] projects.
    Admiral Klunder, could you tell the committee how you use 
219 and LRDP [Laboratory Revitalization Demonstration Program] 
to improve the conditions of your labs? And, more importantly, 
please let us know where we might improve upon those 
authorities.
    Admiral Klunder. Well, first of all, I have to actually--I 
must thank you immensely for the help there and your staff, who 
we talk to on a regular basis. We truly couldn't have gotten 
those advancements in those labs and warfare centers without 
your help, and I thank you.
    I do want to offer that we know in the fiscal environment 
that MILCON will be pressurized for the coming years, and 
certainly at the warfare labs and warfare centers, indeed, we 
see that pressure all the time.
    Why I am so excited about what you were able to provide us 
here is that just for small, relatively small numbers, we can 
continue to make our warfare centers and our labs relevant 
through these modernization efforts. I don't think without your 
help we would have gotten there. I truly mean that. I am sure I 
can put my bid in for a MILCON proposition, and we do, but the 
reality is, it is--there are a lot of pressures. There are 
ships that have to go to sail. There are Army vehicles that 
have to go out and deploy, Air Force. And it just sometimes is 
going to be on the lower level when you fight out from MILCON.
    So without your help, I don't think we'd have been able to 
make that. And I hope you can continue to give us that support, 
and we truly thank you and your staffs, sir.
    Mr. Langevin. Thank you, Mr. Chairman. I yield back.
    Mr. Kline. Thank you, sir.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. And I want to thank 
the panel for being here, particularly as you support our 
warfighters and the technology that you are developing. They 
are going to save lives, particularly on our side.
    You know, Dr. Walker, one of the things I think you 
mentioned in your testimony was about CHAMP [Counter-
electronics High Power Microwave Advanced Missile Project], 
directed energy program, and I agree with, you know, Mr. 
Langevin, reference to, you know, getting it out of the 
laboratory and out into the field to our warfighters, you know, 
what we can do to move that along, maybe you could give me an 
idea--because I know CHAMP. We have spent $40 billion, I 
believe, in development. I know it has been tested and actually 
has had positive results, so can you explain to me why we 
actually haven't put that out into the field?
    Dr. Walker. Certainly. CHAMP has been a long-term 
development in the laboratory, really turning the promise of 
high-powered microwave for ground attack into a reality.
    We had a successful demonstration--I wouldn't say that we 
have fully tested it, but we have demonstrated that there is 
really a feasible capability. We had a successful flight test 
last fall, where we went against targets both soft and hardened 
and used the high-powered microwave to upset them.
    The follow-on from that now is moving this forward into the 
acquisition process, where they are looking at capabilities and 
trading off concepts to determine whether or not this is 
something to go forward with into a follow-on weapons system. 
That is ongoing. In the meantime, the laboratory is continuing 
to develop better power supplies, better--high-powered 
microwave sources, so as to give the warfighter even greater 
capability as they go forward into an acquisition program.
    And we are waiting to see the outcome of this concept 
development to see where we will go forward with this and 
whether we move into an AOA [Analysis of Alternatives] here in 
the near future.
    Mr. Nugent. And I guess the question for me is, what do you 
think the timeline is? I mean, obviously, it is always great to 
improve a weapon system. And I got three kids all in the Army, 
so I want, you know, the best and the greatest. But at the same 
time, I also want a capable weapons system to be deployed. You 
can always add on and do things to improve its accuracy or 
lethality, so----
    Dr. Walker. The timeline is a challenge right now, 
particularly in this fiscal environment, because we are having 
to make trades between other forms of attack, and where this 
fits in and when we will be able to afford it, I would have to 
take a question for the record here to give you an actual 
timeline of where we think we will be coming forward with the 
program.
    [The information referred to can be found in the Appendix 
on page 147.]
    Mr. Nugent. I appreciate that. And I certainly want to 
continue to--I don't think I have to challenge you all to move 
forward, because I know that your hearts and minds are in the 
right places in regards to this.
    But, Ms. Miller, from the Army, C-RAM [Counter-Rocket, 
Artillery, and Mortar], if you give me some additional 
information as to where we are and what we see in the future 
for C-RAM.
    Ms. Miller. Improvements to C-RAM?
    Mr. Nugent. Yes.
    Ms. Miller. Yes, sir. We certainly, from the Aviation 
Missile, Research Development, and Engineering Center, AMRDEC 
[Aviation and Missile Research, Development and Engineering 
Center ], we have been investing in technologies to do 
affordable missiles that can go out and intercept RAMs 
[Rockets, Artilleries and Mortars], rockets, artilleries and 
mortars, and also UAVs, because, of course, as Admiral Klunder 
said in his opening statement, we have a cost paradigm where we 
are spending much more to defeat very inexpensive threats, and 
that is what we are trying to drive down.
    So we have been designing affordable missiles that can go 
out and intercept, and also the directed energy solutions that 
we have talked to earlier are part of that equation.
    Mr. Nugent. And I would think the--your directed energy 
laser is much more--I don't know at this point efficient, but 
at least more cost-effective versus firing a missile?
    Ms. Miller. Certainly cost-effective once it is developed 
and when it is in use. The missiles that we are looking at, 
however, we are looking at very, very inexpensive missiles that 
can take out those threats, and that will be near-term. And the 
Army has a problem right now. We are certainly using C-RAM 
right now, and it is not the most cost-effective a solution, so 
we are looking at what we can do to drive down the cost of that 
capability and then bring on directed energy as soon as we are 
able.
    Mr. Nugent. Obviously, that is the--one of the futures that 
we have, is directed energy. And I appreciate my friend down 
the aisle there to keep the push.
    And so thank you so very much.
    Mr. Kline. The gentleman yields back. We have all had an 
opportunity to ask questions. The chairman, the real chairman, 
said he had questions for the record. I think I am looking at 
them right here, so, staff, standby, quite a few.
    Again, I want to thank you for being here today. I know it 
is not a great joy. I have never known anyone to spring for joy 
when they find out they are going down to testify on the Hill. 
So thanks for being here. Thanks for your absolute great work. 
Keep it up. And please, oh, please, start looking at those 
priorities under sequestration. I know somewhere you are, but 
we really need to be ready for that and see which projects and 
which program elements are going to survive and which ones 
aren't. And I know there is a lot of pain out there, but the 
sooner we start to step up to it, the better.
    So, again, thank you very much. With that, the business is 
concluded. The hearing is adjourned.
    [Whereupon, at 4:44 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 16, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 16, 2013

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 16, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. NUGENT

    Dr. Walker. The Counter-Electronics High Power Microwave (HPM) 
Advanced Missile Project (CHAMP) was an Air Force science and 
technology (S&T) Joint Capabilities Technology Demonstration (JCTD) 
which successfully demonstrated the effects of an HPM weapon on a wide 
range of military-relevant electronic equipment in a realistic 
environment. S&T develops and demonstrates technology that can be 
transitioned to the system development/procurement community.
    As this was an S&T demonstration, the JCTD was limited in scope and 
did not account for weapon survivability and effects delivered in an 
operationally relevant threat environment. A CHAMP JCTD Military 
Utility Assessment is currently being drafted by U. S. Pacific Command 
(USPACOM). The Air Force will use this assessment and any additional 
information/data from the demonstration to feed the Air Force's Non-
Kinetic Counter Electronic (NKCE) weapon concept of using HPM 
technology to affect real world electronic equipment in an 
operationally relevant threat environment. The Air Force is completing 
the NKCE Comprehensive Concept Analysis (CCA) in FY14. The CCA will 
define the technological characteristics required to integrate HPM 
technology into a weaponized platform and be survivable in an 
operationally relevant threat environment long enough to deliver the 
intended effects. CHAMP, along with other potential solutions, will be 
part of NKCE Analysis of Alternatives (AoA) notionally scheduled to 
take place during FY15. If the warfighter (e.g. USPACOM) determines 
there is an urgent need that CHAMP could support, there is a separate 
process to support that need. As of now there has not been such a 
request.
    FY13 and FY14 funds supporting these analyses has been requested in 
a system development and demonstration program element (PE) 0604429F, 
Airborne Electronic Attack. [See page 22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 16, 2013

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. In your testimony, you mentioned the benefits of 
the direct hiring authority provided to the Science and Technology 
Reinvention Laboratories. Are there impediments to wider use of this 
authority? If so, what can be done to improve the situation?
    Mr. Shaffer. Yes, there are impediments/limitations to direct 
hiring authorities for our labs. One impediment is that direct hiring 
of only scientists and engineers with advanced degrees is allowed. This 
impediment prevents us from directly hiring scientists with 
undergraduate degrees. Nevertheless, preliminary reports from lab 
directors indicate positive results for the hiring of talented and 
highly qualified university graduates into our laboratories who may 
have taken offers from other organizations if not for the new expedited 
processes enabled by STRL authorities. However, the sequester and 
associated budget issues are expected to have a negative impact on both 
hiring and retention of lab S&Es. Regarding impediments to hiring, 
ancillary effects due to the current budget shortfalls may be hurting 
our workforce. The prolonged pay freeze, travel restrictions, 
limitations on conference attendance, and potential reductions in force 
are concerns. Given the fact that our labs are the Department's 
technical base, these factors may degrade our technical capability for 
the foreseeable future.
    Mr. Thornberry. In your testimony, you stated that the Department 
is in the process of quantitatively determining perceived shortfalls in 
prioritizing Service military construction (MILCON) projects and how 
DOD labs compete in the process. But this isn't a new problem, so why 
are you just now studying it? Is the current funding limit for minor 
military construction sufficient for the needs of the DOD labs? Should 
it be increased? If it was, what might the impact be on other MILCON 
activities?
    Mr. Shaffer. This issue remains a topic of interest to my office, 
and we have given attention to this issue for years. Our last report 
submitted to Congress in FY2011, ``DOD Laboratory Recapitalization and 
Sustainment Issues,'' in response to Senate Report 111-035, documented 
status of lab infrastructure including investments from the BRAC 2005 
construction projects. Our current efforts are in partnership with the 
White House Office of Science & Technology Policy's Committee on 
Homeland and National Security Infrastructure Subcommittee, which has 
representatives from Departments of Defense, Energy, Homeland Security 
and others involved with national security issues. A key goal of this 
group is to update federal security laboratory infrastructure physical 
status, funding, and funding mechanisms to develop policy 
recommendations for maintenance and improvement of labs. In addition, 
the Department submitted a FY 14 legislative proposal to increase the 
discretionary minor MILCON authorities from $2M to $4M per project.
    The Department quantifies the status of physical infrastructure via 
determination of the Facility Physical Quality Rating (FPQR), which, on 
a scale of 0-100, depicts the capability of existing facilities as 
measured by a physical condition index. The Condition Index (CI) is a 
general measure of a constructed asset's condition at a specific point 
in time. Included in the measure of the CI, is the Functionality Index 
(FI) which relates the suitability of the physical asset to perform the 
functions for which the building is required. For prioritization of 
MILCON needs, the Services then determine an additional metric, the 
Mission Dependency Index (MDI) which represents Mission Criticality of 
the asset. The DOD goal for the FPQR is 80 for any building. If an 
asset is graded below this value, it then becomes a candidate for 
refurbishment or replacement. In response to the Office of Management 
and Budget, we are examining the FPQR of the Defense Laboratories. 
Preliminary results show our labs to have an overall FPQR of 80, which 
is an acceptable rating.
    While our preliminary data analysis indicates that our laboratory 
infrastructure is in acceptable overall condition, we are concerned 
that there may be some cases where individual buildings leave some 
capabilities at risk, and more detailed analysis is required in those 
instances. To address this potential problem, we are initiating an 
analysis of several laboratory director identified buildings to 
determine whether there is indeed a MILCON problem not identified in a 
top level analysis.
    Mr. Thornberry. The Assistant Secretary of Defense for Research and 
Engineering is tasked by directive as the principal staff assistant for 
biometrics. What are you doing to ensure biometrics remains an enduring 
DOD capability? What do you see as needed future capabilities to 
support biometrics?
    Mr. Shaffer. As the Secretary's Principal Staff Assistant (PSA) for 
DOD Biometrics, I see biometrics as an important contributor in support 
of the National Defense Strategy. The most important future capability 
DOD requires is an authoritative biometric storage and matching system 
tailored to support the Department's unique needs and operating 
environments. This system must use technologies to exploit poor-quality 
biometric images collected in austere locations; be capable of 
processing larger numbers of matches as DOD's use of biometrics grows; 
and, provide near real-time information to users operating in remote 
locations. Our staff is working with the Executive Agent for DOD 
Biometrics to develop a formal biometric acquisition program with 
enduring funding to achieve the key capabilities required for the 
future. We expect to begin fielding these systems by FY 2017. Over the 
past year, we have:
        <bullet>  Developed an updated policy to expand the use of 
        biometrics from operations in Afghanistan and Iraq to all areas 
        where DOD operates. The Department is also developing policy to 
        enable force protection personnel to use biometric data to 
        grant access to military facilities.
        <bullet>  Advanced data sharing between DOD and the Department 
        of Homeland Security. Maximizing biometric data sharing between 
        the Departments helps identify malign agents before they can do 
        harm to the Homeland or to our overseas interests.
        <bullet>  Sponsored technology development in key biometric 
        areas such as thin film fingerprint detectors, latent 
        fingerprint processing and multispectral facial matching. These 
        investments advance biometric capabilities and help maintain 
        the relevancy of biometrics as an enabler across a range of 
        military
        missions.
        <bullet>  Established the enduring use of biometrics at 
        national-level organizations including the White House-
        sponsored National Science and Technology Council subcommittee 
        on Biometrics and Identity Management; the National Security 
        Staff (NSS) Interagency Policy Committee (IPC) on Information 
        Sharing to Counter Terrorist Travel; and, the NSS IPC on 
        Information Sharing and
        Access.

    Mr. Thornberry. You mentioned in your testimony the importance of 
the special hiring authorities DARPA has, but you can also use 
authorities for IPAs (Intergovernmental Personnel Act) and HQEs (Highly 
Qualified Experts). Why have those not worked as well for DARPA?
    Dr. Prabhakar. DARPA continues to use the IPA authority as often as 
practicable. However, as of September 2012, the IPA delegation allowing 
DARPA to set flexible and competitive salaries was rescinded and 
limiting conditions were imposed per Office of the Secretary of Defense 
for Administration and Management (DA&M) memorandum dated September 20, 
2012. This has made utilization of the IPA authority more challenging 
and, at times, a non-option. As an example, we recently lost a highly 
talented candidate from a leading university because his salary far 
exceeded what DARPA is allowed to reimburse under existing guidance.
    The HQE delegation was modeled in its entirety on DARPA's 
Experimental Hiring Authority first implemented in Section 1101 of the 
Strom Thurmond National Defense Authorization Act for Fiscal Year 1999 
(Public Law 105-261) as ``Defense Advanced Research Projects Agency 
Experimental Personnel Management Program for Technical Personnel.'' 
The HQE authority is broader than the 1101 authority, applicable not 
only to those in the Science and Technology (S&T) community, but also 
to fields providing other expertise.
    As first established, DARPA could use the HQE and 1101 hiring and 
retention authorities interchangeably. However, beginning February 
2004, the Office of the Under Secretary of Defense for Personnel and 
Readiness (USD(P&R)) took steps to restrict and better manage the 
allocation of DOD-wide HQE positions, resulting in a process that made 
the HQE authority more challenging for DARPA to use. First, as 
established by Section 9903 of title 5, United States Code (U.S.C.), 
the DOD-wide cap for HQE appointments shall not exceed 2,500 positions. 
These 2,500 positions, in turn, are apportioned and managed by the 
Deputy Under Secretary of Defense for Civilian Personnel Policy 
(DUSD(CPP)). Second, OSD(P&R) reemphasized that HQE basic pay cannot 
exceed the maximum limit established by 5 U.S.C. 9903(b)(2), typically 
within the range from General Schedule 15 (GS-15) Step 1 (or 
equivalent) up to the statutory limit of Executive Schedule Level II, 
provided the Department's Pay and Performance Management System is 
certified by the Office of Personnel Management (OPM) . More recent 
OSD(P&R) guidance further clarified the maximum compensation for HQE 
positions (to include basic pay and locality-based comparability 
payments) at $165,300 . Finally, in the March 14, 2011 Office of the 
Secretary of Defense DOD efficiencies memorandum and the September 20, 
2012 memorandum (effective at the beginning of FY13) the Office of the 
Secretary of Defense, Director of Administration and Management (DA&M) 
rescinded delegation of the HQE authority to defense agencies and 
approval authority for all HQE hires was centralized to the DA&M/Deputy 
Secretary of Defense level.
    The DA&M centralized process for hiring HQEs includes serial 
coordination/approval from the following organizations:
        <bullet>  Assistant Secretary of Defense for Research and 
        Engineering (ASD (R&E))
        <bullet>  Under Secretary of Defense for Acquisition, 
        Technology, and Logistics (USD(AT&L))
        <bullet>  Washington Headquarters Services (WHS) Human 
        Resources Directorate (HRD)--Executive and Political Personnel
        <bullet>  Director of Administration and Management (DA&M)
        <bullet>  Under Secretary of Defense for Personnel and 
        Readiness (USD (P&R))
    Under this process, defense agencies are unable to extend a letter 
of offer to an HQE candidate until all five organizations coordinate on 
and approve an HQE hiring package. The hiring package must include 
candidate qualifications, project details, and compensation 
justification to include labor market conditions, work schedule, 
organizational needs, personal qualifications, experience, budget 
considerations, organizational equity and mission impact of work 
assignments. Each organization may take up to 3 weeks to coordinate on 
a hiring package.
    With the centralization of the HQE hiring authority and the 
additional time required to staff, coordinate, and approve HQE 
positions, the utility of the HQE hiring authority for DARPA beyond 
FY12 has decreased. As a result, DARPA's reliance on alternative, more 
flexible hiring and retention authorities (namely IPA and 1101 
authorities) has increased and DARPA does not envision hiring any 
additional HQE positions at this time.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. Project Pelican, which involved the construction and 
testing of an advanced demonstrator airship, has proved that it is 
possible to control buoyancy without ballast or other external 
assistance, a challenge has been a major hurdle for the development of 
airships for heavy lift purposes. I understand that these hangar 
demonstrations, which were conducted in Tustin, CA, in January, met all 
the objectives that were set for the program in 2008. NASA, which 
cooperated with DOD in the development of the advanced demonstrator, 
has rated Pelican's Technology Readiness Level at 6-7. As you know, 
General Fraser, Commander of TRANSCOM, told the Committee on March 6 
that ``Hybrid Airships represent a transformational capability bridging 
the long standing gap between high-speed, lower capacity airlift and 
low-speed, higher capacity sealift.'' He also said that the hybrid 
airship technology has the potential to fulfill ``Factory to Foxhole 
cargo delivery.'' What are your plans to continue the effort to develop 
hybrid airships for heavy lift?
    Do you intend to go forward with the development of a 66-ton 
payload version?
    What can Congress do to keep this technology and move on to further 
operational vehicle development?
    Mr. Shaffer. From the outset, Pelican was intended to be a 
technology demonstrator rather than an airship prototype. In this 
capacity, Pelican demonstrated several subsystems that will add to 
DOD's collective knowledge of airship technologies and help inform 
future investment. The funded FY13 work will add technical rigor to the 
analyses of Pelican's sub-systems and exhaust Pelican's use as a 
technology demonstrator. ASD(R&E) does not, however, have plans to move 
forward with a 66-ton version. A larger version will have to be 
supported by a military department, which is responsible for equipping 
and fielding systems, and have to be affordable.
    The information gained from Pelican and other recent airship 
projects will help the department determine whether continued larger 
scale, hybrid airship development is warranted. At this point there are 
no plans to build a large scale vehicle; however, the Department has 
set aside annual funding to study technologies required should a large 
scale airship project be initiated in the future.
    Advances in hybrid airship technology have justified investigation 
of potential airship solutions to logistics and ISR missions; however, 
much of this technology is in its infancy and must be matured in a 
methodical and rational manner. Equities in potential heavy lift 
capabilities go far beyond military applications. After the testimony 
cited above, Commander TRANSCOM also stated, ``We encourage development 
of commercial technologies that may lead to enhanced mobility 
capabilities in the future.'' General Fraser's comments reflect OSD's 
intention to follow commercial airship development and collaborate with 
industry when appropriate.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. What concrete steps are each of your organizations 
doing to reinvigorate the DOD relationship with the historically black 
colleges and universities and minority serving institutions (HBCU/
MSIs)? Is there more that Congress can do to help expand efforts with 
the HBCU/MSIs?
    Mr. Shaffer. We have taken several concrete steps to reinvigorate 
the DOD relationship with the Historically Black Colleges and 
Universities and minority-serving institutions (HBCU/MI) and appreciate 
the continuing strong Congressional support for this program. We point 
to four concrete steps:
        1.   The FY 2014 budget request added $15M to the program to 
        create three Centers of Excellence (COE) at HBCU/MI's. These 
        COEs will be competitively awarded in the area of cyber, 
        autonomy and data to decisions.
        2.   We held a successful workshop where we brought together 
        HBCU researchers from over 30 universities and their technical 
        counterparts in the DOD research offices in a forum that 
        allowed the researchers to talk about their research and 
        understand DOD research priorities. Communication both within 
        the Department and between the DOD management and staff and 
        HBCU/MI is central to the success of our efforts.
        3.   The ASD(R&E) communicated his expectations for the HBCU/MI 
        relationship in a December 2, 2011, memorandum to DOD 
        Components, ``Reinvigorating Our Relationship with the 
        Historically Black Colleges and Universities (HBCUs) and 
        Minority-Serving Institutions (MIs).'' For example, senior DOD 
        managers have visited the Presidents of several HBCU/MI.
        4.   We recently developed, and sent to Congress, a plan that 
        outlines actions to strengthen and expand the HBCU/MI program 
        in the next 2 years. The plan builds on the activities already 
        under way and furthers our efforts to enhance the HBCU/MI 
        program.

    Mr. Johnson. What concrete steps are each of your organizations 
doing to reinvigorate the DOD relationship with the historically black 
colleges and universities and minority serving institutions (HBCU/
MSIs)? Is there more that Congress can do to help expand efforts with 
the HBCU/MSIs?
    Ms. Miller. The Army has a concerted effort in support of 
historically black colleges and universities and minority serving 
institutions HBCU/MSIs and they remain an important part of the Army's 
research base. The Army conducts targeted outreach to HBCU/MSIs to 
provide awareness of all funding opportunities and strongly encourages 
direct dialogue with technical points of contact to identify areas of 
common research interest. Additionally, the Army funds five centers of 
excellence at HBCUs through the Partnership in Research Transition 
Program, pursuing basic research with high potential for moving into 
applied research in areas with very high relevance to the Army, such as 
the development and optimization of structures leading to better force 
protection, the development of algorithms for standoff radar for 
landmine and improvised explosive device Detection, and research to 
better understand the socio-cultural content of African languages. 
Additional HBCU/MSI outreach efforts include using Intergovernmental 
Personnel Act agreements and faculty and student fellowships/
internships to bring HBCU/MSI researchers into Army laboratories to 
conduct collaborative research, as well as Educational Partnership 
Agreements that provide student employment, curriculum development for 
all levels of education, and other support to the universities and 
students. Finally, the Army actively supports DOD-sponsored and other 
technical conferences and outreach events (to the extent permitted by 
current fiscal constraints) targeting HBCU/MSIs to ensure the widest 
possible awareness of Army/Department of Defense (DOD) research 
opportunities.
    While we do not need any additional authorities in this area, it is 
important for Congress to continue to provide support for research and 
outreach activities with HBCU/MSIs in order to build institutional 
research capacity, encourage greater participation in DOD programs, 
strengthen their ability to provide excellence in education, conduct 
research critical to DOD national security needs, increase the number 
of graduates in the fields of science, technology, engineering and 
mathematics, and encourage research and educational collaboration with 
other institutions of higher education directed toward advancing the 
state of the art and increasing knowledge.

    Mr. Johnson. What concrete steps are each of your organizations 
doing to reinvigorate the DOD relationship with the historically black 
colleges and universities and minority serving institutions (HBCU/
MSIs)? Is there more that Congress can do to help expand efforts with 
the HBCU/MSIs?
    Admiral Klunder. The Office of Naval Research (ONR) has several 
initiatives under way to strengthen our relationships with Historically 
Black Colleges and Universities and Minority Serving Institutions 
(HBCU/MSIs). Highlights include:
        <bullet>  Conducted the 2013 ONR Summer Faculty Fellowship 
        program competition with increased outreach to HBCU/MI. 
        Received 230 applications. Eighty-four applications were 
        selected nationwide. Of the 84 applicants selected, 38 were 
        from HBCU/MI's (45%).
        <bullet>  Convened a high-level review panel of seven reviewers 
        for the Summer Faculty review process; four panelists were from 
        the government scientific community, and three from academia. 
        All were experts in their fields; two panel members were from 
        HBCU/MIs.
        <bullet>  Created the Future Scientist Summer Intern Program 
        that will provide an opportunity for 40 HBCU/MI undergraduate 
        students to conduct naval relevant research at a Navy 
        laboratory or warfare center in 2014.
        <bullet>  Developed the initial steps to form a new partnership 
        with the following HBCUs: Bowie State University, Howard 
        University, Morgan State University, and the District of 
        Columbia University. The purpose of the partnership is to 
        investigate research areas of importance to the Department of 
        the Navy (DON).
        <bullet>  Increased by 15% the number of HBCU/MI undergraduate 
        and graduate interns who will be conducting naval relevant 
        research at Naval Research Laboratory (NRL) in FY14.
        <bullet>  Developed strategies to identify and engage second 
        tier emerging HBCU/MI research programs, providing them the 
        opportunity to compete for naval relevant research 
        opportunities.
        <bullet>  Drafted the preliminary language for a HBCU/MI Broad 
        Agency Announcement (BAA). This BAA will provide a specific 
        vehicle for HBCU/MI institutions to submit proposals and white 
        papers for future research opportunities relevant to the DON.
        <bullet>  Establishing at the University of Texas--El Paso 
        (UTEP)--a minority serving institution--a Master's of Science 
        Degree in Cyber Security. This UTEP program is modeled after 
        the highly successful Systems Engineering Master's degree 
        program that was developed for the Naval Sea Systems Command at 
        Tuskegee University, an HBCU.
    We appreciate the funding that Congress has provided the DON to 
reach out to the HBCU/MI community. We believe that the steps we have 
taken over the last year (see above) have dramatically improved the 
effectiveness of that outreach.

    Mr. Johnson. What concrete steps are each of your organizations 
doing to reinvigorate the DOD relationship with the historically black 
colleges and universities and minority serving institutions (HBCU/
MSIs)? Is there more that Congress can do to help expand efforts with 
the HBCU/MSIs?
    Dr. Walker. The Air Force remains committed to strengthening HBCU/
MSIs. Each technical directorate of the Air Force Research Laboratory 
(AFRL) is tasked to identify at least one HBCU/MSI as a targeted 
recruiting opportunity based on needed technical competencies, and 
identify a relationship manager for each school/department identified. 
The relationship managers ensure regular contact with potential 
recruits, create opportunities for exchanges and student exposure to 
AFRL, and develop contacts with the targeted university (that includes 
faculty, students, and alumni) within the directorate or across AFRL.
    AFRL ensures that HBCU/MSIs are aware of various funding 
opportunities available throughout the year. In FY12, the Air Force 
Office of Scientific Research (AFOSR), a component of AFRL, funded 22 
research and instrumentation grants at 18 HBCU/MSIs. AFOSR funding is 
above and beyond OSD's HBCU/MSI program. The principal investigators 
(PIs) at institutions that receive grants are steadily building 
research expertise and many are seen as leaders in their research 
areas.
    The Air Force continues to place strong emphasis on PI development 
by selecting HBCU/MSI faculty to serve on scholarship, fellowship, and 
research review panels, and encouraging HBCU/MSI students to apply for 
STEM scholarship, fellowship, and internship programs offered by DOD. 
Additionally, AFOSR has a full-time HBCU/MSI program coordinator 
focused on growing relationships with HBCU/MSIs and the AFOSR STEM 
program manager is a member of advisory councils for HBCU/MSIs that 
help to foster relationships with institutions.

    Mr. Johnson. What concrete steps are each of your organizations 
doing to reinvigorate the DOD relationship with the historically black 
colleges and universities and minority serving institutions (HBCU/
MSIs)? Is there more that Congress can do to help expand efforts with 
the HBCU/MSIs?
    Dr. Prabhakar. The Defense Advanced Research Projects Agency 
(DARPA) has implemented the following steps to reinvigorate the DOD 
relationship with the historically black colleges and universities and 
minority serving institutions (HBCU/MSIs):
        <bullet>  DARPA is able to monitor HBCU/MSI success rates in 
        response to its Broad Agency Announcements (BAAs) and other 
        solicitations through information readily available from the 
        Federal Procurement Data System-Next Generation.
        <bullet>  DARPA includes HBCU/MSI opportunities in our BAAs.
        <bullet>  DARPA is speaking honestly and directly with 
        potential university partners to encourage researchers to renew 
        their commitment to working on critical Defense solutions. To 
        achieve this goal, DARPA is making it easier for university 
        leaders to engage by clearing obstacles and encouraging our 
        nation's best and brightest to serve in Government. Individuals 
        possessing the required skill and talent to serve as program 
        managers could serve via the Intergovernmental Personnel Act or 
        through other hiring mechanisms available to DARPA.
        <bullet>  A DARPA Program Manager is on the Science, 
        Technology, Engineering, and Mathematics (STEM)-focused panel 
        for the White House Office of Science and Technology Policy, 
        and works closely with the U.S. Department of Education. Both 
        organizations support initiatives that solicit representation 
        from under-represented groups, including faculty and students 
        of HBCUs/MSIs.
        <bullet>  DARPA removed barriers to HBCU/MSI participation in 
        its Young Faculty Award program. Previously, participation was 
        limited to untenured Assistant or Associate Professors within 
        five years of appointment to a tenure-track position at a U.S. 
        institution of higher education. The solicitation language was 
        revised and the portion in quotes was added to give HBCU/MSIs 
        the opportunity to participate: Participation is limited to 
        untenured Assistant or Associate Professors within five years 
        of appointment to a tenure-track position at a U.S. institution 
        of higher education `` . . . or equivalent at a non-profit 
        science and technology research institution.'' The solicitation 
        also specifically stated: ``Historically Black Colleges and 
        Universities (HBCU's) and Minority Institutions (MI's) are 
        encouraged to submit proposals.'' DARPA determined allowing 
        this participation is in line with the well-established 
        National Science Foundation and other federal guidelines listed 
        below.
                1)   The employing organization does not offer tenure 
                track appointments.
                2)   The appointment is a continuing appointment (soft-
                money appointments and/or visiting appointments do not 
                apply).
    In these cases, the organization must make the determination that 
the appointee meets these guidelines prior to proposal submission, and 
must provide verification in lieu of a tenure track appointment date.
    DARPA is not currently providing funding to any HBCUs for other 
than acquisition and grant and agreement activities, but will fund 
HBCUs consistent with 10 U.S.C. 2362. DARPA is not currently 
participating in any HBCU/MSI focused outreach events this time, but 
will continue to seek out opportunities to do so.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON
    Mr. Carson. I have heard from many businesses in my district--both 
large and small--that have developed innovative technologies under DOD 
contracts but have not reached the procurement stage. Some of have been 
fortunate enough to find private sector applications for these 
technologies. But others have seen their R&D programs come to an end 
and their technologies sit unused. I am interested in knowing what 
steps each of you take to ensure that these technologies--which are 
paid for by American taxpayers--are put to good use? Are there efforts 
to catalog this research and communicate it to other services, agencies 
and contractors to ensure that the same research is not repeated 
unnecessarily on future programs?
    Mr. Shaffer. [The information was not available at the time of 
printing.]

    Mr. Carson. I have heard from many businesses in my district--both 
large and small--that have developed innovative technologies under DOD 
contracts but have not reached the procurement stage. Some of have been 
fortunate enough to find private sector applications for these 
technologies. But others have seen their R&D programs come to an end 
and their technologies sit unused. I am interested in knowing what 
steps each of you take to ensure that these technologies--which are 
paid for by American taxpayers--are put to good use? Are there efforts 
to catalog this research and communicate it to other services, 
agencies, and contractors to ensure that the same research is not 
repeated unnecessarily on future programs?
    Ms. Miller. The Defense Technical Information Center (DTIC) is the 
hub of Department of Defense (DOD) Scientific and Technical information 
and provides the venue for information exchange between the Services to 
insure that the same research is not repeated. The Army participates in 
DTIC's Scientific and Technical Information Program (STIP), an online 
database of DOD research efforts. STIP recognizes the impact and 
efficient sharing of releasable information within agencies and 
activities of the DOD and outside the Army; these agencies and 
activities include other Federal, State, university, not-for-profit, 
and commercial institutes. Additionally, since 2012, the Army has 
joined with the other services to support the Defense Innovation 
Marketplace (http://www.defenseinnovationmarketplace.mil) by providing 
key research, development and acquisition information in one easy to 
find location. The Marketplace is a portal for companies, large and 
small, to securely share their Independent Research & Development (R&D) 
projects to increase government visibility of their technology. The 
project database is growing and holds more than 6,000 industry R&D 
projects, allowing department Science and Technology (S&T) program 
managers and acquisition executives to learn about industry technology 
and then fully leverage it for current or future programs.
    The Department has several mechanisms to ensure S&T investments are 
coordinated with other Services and agencies, to ensure that the same 
research is not repeated unnecessarily on future programs, including 
monthly meetings of the Science and Technology Executive Committee, 
comprised of the Service S&T Executives and the Deputy Assistant 
Secretary of Defense (Research), and weekly meetings of the Deputies to 
the Service S&T executives. There are 17 Communities of Interest which 
are informal organizations to provide a forum for intra-Service and 
Component coordination and information exchanges in specific S&T topic 
areas primarily at the laboratory and research center level. Finally, 
there are seven Priority Steering Committees which develop integrated 
S&T investment strategies and roadmaps in capability areas of cross 
Service importance.

    Mr. Carson. I have heard from many businesses in my district--both 
large and small--that have developed innovative technologies under DOD 
contracts but have not reached the procurement stage. Some of have been 
fortunate enough to find private sector applications for these 
technologies. But others have seen their R&D programs come to an end 
and their technologies sit unused. I am interested in knowing what 
steps each of you take to ensure that these technologies--which are 
paid for by American taxpayers--are put to good use? Are there efforts 
to catalog this research and communicate it to other services, 
agencies, and contractors to ensure that the same research is not 
repeated unnecessarily on future programs?
    Admiral Klunder. There are several aspects to answering this 
question. First, the Office of Naval Research is very proactive in 
working to facilitate transition of technology into further development 
and commercialization. For small businesses, we have established a 
Transition Assistance Program that works with them to develop 
relationships with potential customers, including Program Managers and 
prime contractors. Experience with the TAP has shown nearly a doubling 
in the likelihood of obtaining a Phase III (commercialization) contract 
for the Phase II products of the Small Business Innovation Research 
program. And, for the full range of businesses that participate in our 
Future Naval Capabilities program as an example, we engage directly 
with resource sponsors and transition partners (primarily Program 
Executive Officers/Program Managers) to document and sustain their 
commitment to transition the products. This has led to a healthy 
success rate in transitioning the products into acquisition programs 
and to the Fleet/Marine Forces.
    Second, even when the products do not directly translate into 
procurements, they benefit the S&T and acquisition communities in a 
number of ways. Often, they lead to follow on research efforts, which 
build upon what was achieved and any lessons learned. They also aid in 
``setting the bar'' for what capabilities can be achieved, reducing 
acquisition program risk, and establishing expectations for performance 
and price.
    Finally, documentation of the results of the effort (published 
findings, interim and final reports, etc.) are indeed catalogued by the 
Defense Technical Information Center (DTIC), which serves as a 
repository for that information. The DTIC database is accessible by 
Government and industry researchers, who can use that information in 
developing new research thrusts by building upon what has already been 
done and avoiding unnecessary duplication of effort.
    Mr. Carson. As you may know, Crane Naval Surface Warfare Center is 
located just south of my district in Southern Indiana. This facility is 
absolutely critical to our State and contributes to a strong research 
and development and supplier industrial base in my district. Can you 
discuss the importance of Crane to the overall mission of the Navy and 
the role you anticipate that it and other surface warfare centers will 
play as we retool for future missions?
    Admiral Klunder. The Naval Sea Systems Command Warfare Center 
Enterprise is comprised of the Naval Surface Warfare Center (NSWC) and 
the Naval Undersea Warfare Center (NUWC). With eight Surface Warfare 
and two Undersea Warfare sites across the United States, the Warfare 
Centers supply the technical operations, people, technology, 
engineering services and products needed to equip and support the fleet 
and meet the warfighters' needs. The Warfare Centers are the Navy's 
principal research, development, test and evaluation (RDT&E) assessment 
activity for surface ship and submarine systems and subsystems. In 
addition, the Warfare Centers provide depot maintenance and in-service 
engineering support to ensure the systems fielded today perform 
consistently and reliably in the future.
    The Naval Surface Warfare Center (NSWC) Crane Division is one of 
eight commands within NSWC. The mission of NSWC Crane is to provide 
acquisition engineering, in-service engineering and technical support 
for sensors, electronics, electronic warfare and special warfare 
weapons. NSWC Crane also works to apply component and system-level 
product and industrial engineering to surface sensors, strategic 
systems, special warfare devices, and electronic warfare and 
information operations systems. Crane has focused particularly on three 
mission areas where they can best support the Warfighter.
    The Special Missions Center provides elite Warfighters with a 
distinct advantage in the rapidly changing combat environment. Areas of 
support include Special Operations, Irregular Warfare and Riverine 
Operations, among others. With more than one million square feet of 
offices and laboratories, the Special Missions Center's focus is on 
sensors and communications, mobility and maneuverability, special 
munitions and weapons and technical training. The Center is a go-to 
source for the Warfighter who requires expertly delivered solutions 
that ensure safe and effective missions. The Strategic Missions Center 
is a trusted source for the critical electronics and sensors required 
for global deterrence and ballistic missile defense. Through its 
recognized leadership, preeminent facilities and experienced personnel, 
the Center is dedicated to developing, deploying and sustaining the 
technologies that ensure weapons systems are fully reliable and always 
available to defend the homeland. Strategic Missions resources deliver 
innovative technical solutions encompassing the full range of military 
activities to alter an adversary's will and ability to attack the U.S. 
and its interests. Offering 50 years of naval strategic mission 
success, the Center is dedicated to delivering the best technical 
solutions in Threat Detection, Integrated Missile Defense and Global 
Strike. The Electronic Warfare/Information Operations (EW/IO) Center 
provides a critical mass of co-located leadership to offer applied 
science solutions across Air, Ground and Maritime Domains. Its experts 
afford Electronic Attack, Electronic Protection and Electronic Support 
capabilities to the Warfighter to ensure safe and effective missions. 
An EW Center of Excellence, the EW/IO Center is the largest multi-
service facility within the Department of Defense for EW, EW Sensors 
and electronics.

    Mr. Carson. I have heard from many businesses in my district--both 
large and small--that have developed innovative technologies under DOD 
contracts but have not reached the procurement stage. Some of have been 
fortunate enough to find private sector applications for these 
technologies. But others have seen their R&D programs come to an end 
and their technologies sit unused. I am interested in knowing what 
steps each of you take to ensure that these technologies--which are 
paid for by American taxpayers--are put to good use? Are there efforts 
to catalog this research and communicate it to other services, agencies 
and contractors to ensure that the same research is not repeated 
unnecessarily on future programs?
    Dr. Walker. The Air Force Research Laboratory (AFRL) makes every 
effort to ensure developed technologies are put to good use. Competing 
technology approaches are often funded to reduce high technical risk. 
Though two or more technologies may prove successful, it is generally 
most cost effective to select only the one best suited for the system 
to be developed. Occasionally, user requirements are changed during 
science and technology development due to changing threat environment 
or defense strategy. In other cases, another competing technology may 
prove more successful when demonstrated. In a few cases, there may be 
legal or data rights issues that prevent a planned transition.
    The Air Force requires that AFRL research summaries be developed 
and submitted for every unit of research work done at the laboratory. 
The data is collected by the Defense Technical Information Center 
(DTIC) and is used to populate an extensive database. All researchers 
are required to query this database before starting any new efforts. 
Researchers are also required to submit a final report to DTIC at the 
conclusion of their efforts.
    Additionally, the DOD has opened a new DTIC website called the 
Defense Innovation Marketplace. This site is being used to drive 
additional collaboration and information sharing between all research 
arms of the DOD and defense industry--large and small.
    For Small Business Innovation Research (SBIR) contracts, the Air 
Force uses multiple approaches to advertise the products of those 
efforts to system developers and, in many cases, facilitate bringing 
the prospective partners together. The Air Force is also making full 
use of the Air Force Commercialization Readiness Program to assist with 
the transition of Phase II SBIR products to using Major Commands.

    Mr. Carson. I have heard from many businesses in my district--both 
large and small--that have developed innovative technologies under DOD 
contracts but have not reached the procurement stage. Some of have been 
fortunate enough to find private sector applications for these 
technologies. But others have seen their R&D programs come to an end 
and their technologies sit unused. I am interested in knowing what 
steps each of you take to ensure that these technologies--which are 
paid for by American taxpayers--are put to good use? Are there efforts 
to catalog this research and communicate it to other services, agencies 
and contractors to ensure that the same research is not repeated 
unnecessarily on future programs?
    Dr. Prabhakar. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MAFFEI
    Mr. Maffei. Considering and expanded strategic Department of 
Defense vision for Asia and Africa, we note with great interest and 
appreciation the emerging military medical research in the areas of 
global health, bio-defense, bacterial health, combating bacterial 
infections in fixed and mobile military medical facilities and 
bacterial translational science. Please share in detail with the 
Committee, what research and development is military medicine exploring 
regarding molecular roadblocks and protein switches to regulate gene 
expression in non-Staphylococcus bacterial infections in order to 
develop treatments and therapies independent of antibiotics?
    Mr. Shaffer. The following research and development efforts 
regarding molecular roadblocks and protein switches to regulate gene 
expression in non-Staphylococcus bacterial infections are being 
supported by the DOD.

    Funding Agent: Military Infectious Disease Research Program (US 
Army)
    Performer: University of Idaho
    This research effort investigates how bacterial metabolism controls 
persister formation in biofilms. Bacterial persistence is a phenomenon 
in which a small fraction of a bacterial population (.0001 to 1%) 
enters dormancy in otherwise growth-promoting conditions to survive 
future stress (e.g., antibiotic treatment). These survivors are 
responsible for the relapse of biofilm infections, and thus a greater 
understanding of their formation will lead to more effective therapies 
against biofilm-utilizing pathogens, such as Pseudomonas aeruginosa, 
Escherichia coli, and Acinetobacter baumannii. Researchers have 
discovered that diauxic carbon shifts stimulate the generation of 
persisters in planktonic cultures, and believe this to be a general 
phenomenon in response to metabolite fluctuations. Biofilms are highly 
heterogeneous communities in which the microenvironment of encased 
bacteria changes considerably as the film matures. The hypothesis is 
that metabolic control of persister formation is a dominant mode of 
persister generation in biofilms, and that a mechanistic understanding 
of this phenomenon will lead to novel treatment strategies. This effort 
will elucidate how metabolism controls persister formation in biofilms, 
and identify targets of therapeutic interest for the reduction of 
relapse infections from biofilms in combat-wounded personnel. This 
project aligns with the focus area on identification and 
characterization of microbial virulence factors and other potential 
therapeutic targets of metabolic or signaling pathways associated with 
wound infection and/or biofilm formation, maintenance, and propagation
processes.

    Funding Agent: Military Infectious Disease Research Program (US 
Army)
    Performer: University of New York, Binghamton
    The research project evaluates the role of bacterial super-antigen 
(Sag) proteins in activating systems contributing to biofilm formation 
and resistance. Biofilms are extremely difficult to eradicate by 
conventional antimicrobial treatments and are considered the root of 
many persistent and chronic bacterial infections. For a long time, the 
nature of biofilm resistance was deemed to be multifactorial. However, 
recent evidence suggests that in P. aeruginosa, biofilm resistance is 
regulated by SAg proteins. SAg protein is a novel P. aeruginosa 
regulator that not only plays a role in initial colonization of 
surfaces, but also in the maintenance of established biofilms and the 
development of biofilm resistance. SAg protein was found to control the 
phosphorylation status of biofilm signaling protein (BfiS), a 
regulatory protein previously found to be essential for biofilm 
formation. While a BfiS mutant only demonstrated a defect in biofilm 
formation but not resistance, inactivation of the upstream SAg protein 
impaired biofilm formation and made P. aeruginosa cells more 
susceptible to antimicrobial treatments. Based on these preliminary 
findings, the hypothesis is that SAg protein transduces growth mode-
specific signals to other regulators via phospho-relay events to 
activate multiple systems involved in the architectural formation of 
biofilms and the development of biofilm resistance. The goal of this 
project is to characterize the SAg protein-dependent signaling 
mechanism controlling the transition of P. aeruginosa to the surface-
associated lifestyle, and the formation of highly resistant biofilms.

    Funding Agent: Office of Naval Research (ONR)
    Performer: The Scripps Research Institute
    Lateral gene transfer is one of the major routes by which bacteria 
evolve resistance to antibiotics. The primary aim of this research is 
to identify lead compounds that inhibit lateral gene transfer and 
virulence, while also killing the bacteria by inhibiting antibiotic 
resistance mechanisms. This work targeted the Bacterial Type I Signal 
Peptidase (SPase I) since it is required to cleave mature proteins from 
the signal peptide that targets them for translocation across the 
cytoplasmic membrane. This process is required for bacterial cell 
viability and occurs on the outer leaflet of the cytoplasmic membrane, 
making it an attractive target for an antibiotic. However, because 
secreted proteins are required for lateral gene transfer and virulence, 
SPase I inhibitors should also inhibit gene transfer and virulence. To 
date, this work has identified the arylomycin class of natural product 
antibiotics as inhibitors of SPase I and has demonstrated that 
arylomycin inhibits lateral gene transfer.

    Funding Agent: Office of Naval Research (ONR)
    Performer: University of Wisconsin
    Many species of bacteria use a chemical signaling process (i.e., 
quorum sensing) to sense a quorum and coordinate secretion of virulence 
factors as a response. Quorum sensing also controls biofilm formation 
as well as other processes. The primary goal of this work is to probe 
quorum sensing as a new target for the treatment of bacterial infection 
and the eradication of biofilms. Since dihydrofolate reductase and 
dihydropteroate synthetase play a central role in the synthesis of 
nucleic acid precursors, the essential building blocks of DNA and RNA, 
inhibition of these enzymes should limit the growth and proliferation 
of bacterial cells. This work seeks to identify inhibitors of 
dihydrofolate reductase. A second objective of this work is to develop 
polymeric materials for the surface-mediated release of quorum-sensing 
modulators. Two approaches are being taken for the surface mediated 
release of quorum sensing inhibitors: (1) Encapsulation / release from 
thin films of a bulk biocompatible, biodegradable polymer incorporating 
inhibitors of Gram-negative quorum sensing (degradation of the polymer 
releases the material), and (2) Loading/release from nanostructured 
`polymer multilayers.' To date, biocompatible, biodegradable, bulk 
polymeric films incorporating inhibitors of Gram-negative quorum 
sensing on planar surfaces have been shown to (1) permit controlled 
release of quorum sensing inhibitors in biologically relevant media 
from hours to days to months, and (2) inhibit (90%) Pseudomonas 
aeruginosa film formation over 24-48 hours. ONR has funded highly 
successful research in the recent past that identified several 
promising inhibitors of a pro-mutagenic protein involved in induced 
mutagenesis, which was shown to play a key role in the evolution of 
resistance to the synthetic antibiotic ciprofloxacin. Those pro-
mutagenic protein inhibitors were transferred to a commercial 
biopharmaceutical company in 2005 based entirely on results generated 
under Office of Naval Research funding.

    Mr. Maffei. Considering and expanded strategic Department of 
Defense vision for Asia and Africa, we note with great interest and 
appreciation the emerging military medical research in the areas of 
global health, bio-defense, bacterial health, combating bacterial 
infections in fixed and mobile military medical facilities and 
bacterial translational science. Please share in detail with the 
Committee, what research and development is military medicine exploring 
regarding molecular roadblocks and protein switches to regulate gene 
expression in non-Staphylococcus bacterial infections in order to 
develop treatments and therapies independent of antibiotics?
    Ms. Miller. The Wound Infection Department of the Walter Reed Army 
Institute of Research (WRAIR) has a Cooperative Research and 
Development Agreement (CRADA) with the State University of New York, 
College of Environmental Science and Forestry (SUNY-ESF), Dr. 
Christopher Nomura, to explore the development of molecular roadblocks 
for an enzyme partially responsible for replicating a bacterial 
ribonucleic acid known as rpoN. This collaborative research seeks to 
investigate how rpoN regulates protein production in Acinetobacter 
baumannii and Pseudomonas aeruginosa, two life threatening wound 
pathogens frequently associated with multidrug resistant infections in 
wounded military personnel. The ultimate goal of the work is to 
determine whether rpoN could be blocked by drugs and if so, foster 
development of new anti-bacterial drugs that inhibit this enzyme. This 
effort was established this year as a small initial effort geared at 
obtaining preliminary data to support larger collaborative efforts in 
subsequent years.

    Mr. Maffei. Considering and expanded strategic Department of 
Defense vision for Asia and Africa, we note with great interest and 
appreciation the emerging military medical research in the areas of 
global health, bio-defense, bacterial health, combating bacterial 
infections in fixed and mobile military medical facilities and 
bacterial translational science. Please share in detail with the 
Committee, what research and development is military medicine exploring 
regarding molecular roadblocks and protein switches to regulate gene 
expression in non-Staphylococcus bacterial infections in order to 
develop treatments and therapies independent of antibiotics?
    Admiral Klunder. The Navy Medicine Medical Research and Development 
laboratories and clinical centers, including the Naval Medical Research 
Center and its seven subordinate labs, are not engaged in any research 
or development activities exploring molecular roadblocks and protein 
switches to regulate gene expression in non-Staphylococcus bacterial 
infections. Specifically, there is no such research being conducted 
with a goal to develop treatments and therapies for infections with 
such organisms, independent of antibiotics.

    Mr. Maffei. Considering and expanded strategic Department of 
Defense vision for Asia and Africa, we note with great interest and 
appreciation the emerging military medical research in the areas of 
global health, bio-defense, bacterial health, combating bacterial 
infections in fixed and mobile military medical facilities and 
bacterial translational science. Please share in detail with the 
Committee, what research and development is military medicine exploring 
regarding molecular roadblocks and protein switches to regulate gene 
expression in non-Staphylococcus bacterial infections in order to 
develop treatments and therapies independent of antibiotics?
    Dr. Walker. The Air Force respectfully defers this question to the 
Office of the Secretary of Defense, Health Affairs (Defense Health 
Program).

    Mr. Maffei. Considering and expanded strategic Department of 
Defense vision for Asia and Africa, we note with great interest and 
appreciation the emerging military medical research in the areas of 
global health, bio-defense, bacterial health, combating bacterial 
infections in fixed and mobile military medical facilities and 
bacterial translational science. Please share in detail with the 
Committee, what research and development is military medicine exploring 
regarding molecular roadblocks and protein switches to regulate gene 
expression in non-Staphylococcus bacterial infections in order to 
develop treatments and therapies independent of antibiotics?
    Dr. Prabhakar. The DARPA Defense Sciences Office currently supports 
significant research efforts to develop treatments and therapies 
independent of antibiotics. The Autonomous Diagnostics to Enable 
Prevention and Therapeutics (ADEPT) Program is exploring several 
approaches that target genetic constructs in order to tune the immune 
system response to infections and toxins. The following academic 
institutions are pursuing a variety of genetic engineering strategies:
        <bullet>  Cornell University: Using synthetic biology to 
        develop combinatorial genetic switches for high resolution 
        monitoring of Mycobacterium tuberculosis infection and drug 
        screening in order to develop targeted combination therapies.
        <bullet>  Massachusetts Institute of Technology: Engineering 
        ribonucleic acid (RNA)-based circuits for controlling timing 
        and level of expression of antibodies and vaccines produced 
        from RNA vectors.
        <bullet>  Stanford University: Developing RNA-based switches 
        that can turn expression of antibodies or vaccines from RNA 
        vectors `on' or `off' in response to delivery of a small 
        molecule drug.
        <bullet>  Harvard University: Using directed evolution to 
        rapidly generate proteases and antibody-like proteins with the 
        ability to therapeutically cleave or target any protein of 
        interest with a high degree of specificity.
        <bullet>  California Institute of Technology: Preventing spread 
        of vector-borne diseases by engineering reversible genetic 
        methods to introduce genes that mediate disease refractoriness 
        to high frequency in wild populations.
    Additionally, a newer effort will use genetic constructs to express 
protective antibodies in the body. This platform technology can be used 
as a prophylactic against multiple types of infections or toxins. 
Companies and academic institutions are being supported to target 
different approaches to antibody expression:
        <bullet>  Pfizer, Novartis, CureVac, Moderna, Ragon Institute: 
        Developing RNA constructs that will express protective 
        antibodies in the body. Pfizer is developing constructs that 
        will protect against Burkholderia infection. CureVac is 
        developing RNA constructs that will express antibodies to 
        protect against botulinum toxin.
        <bullet>  University of Pennsylvania and Ichor: Developing DNA 
        constructs that will express protective antibodies in the body.
        <bullet>  University of Pennsylvania: Developing adenoviral 
        constructs that will express protective antibodies in the body.
        <bullet>  University of Massachusetts: Identifying antibodies 
        that are protective against enterotoxigenic escherichia coli 
        (ETEC).
    Finally, three companies are supported by Small Business Innovation 
Research (SBIR) program funding to discover new methods to treat 
resistant or virulent bacteria. These efforts directly target drug-
resistant or toxin-encoding plasmids, while protecting the general 
microbiome from harm:
        <bullet>  Agave BioSystems: Developing antisense therapeutics 
        to inhibit drug resistance gene transfer in both gram-positive 
        and gram-negative bacteria.
        <bullet>  UES, Inc.: Exploiting group II introns (novel class 
        of catalytic RNA) to selectively inactivate genes critical for 
        plasmid replication and maintenance and/or activate a toxic 
        payload on inserting into plasmid specific sequences. The 
        ability to prevent plasmid replication will offer a method to 
        control the spread of multi-drug resistance.
        <bullet>  Ginkgo BioWorks: Controlling antibiotic resistance by 
        vaccinating bacterial populations using the Clustered Regularly 
        Interspaced Short Palindromic Repeats (CRISPR)/CRISPR-
        associated (Cas) bacterial immune system (stored 
        deoxyribonucleic acid (DNA) fragments that target specific 
        foreign DNA sequences; Cas genes process the CRISPR RNA to 
        identify and degrade target DNA).
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Certainly we are not the only nation that is 
concerned about the advanced A2/AD threats. In your views, are we doing 
enough coordination with our allies on research and development of 
directed energy systems?
    Mr. Shaffer. Yes, I am confident that the Department is engaged 
with our allies in research on directed energy systems. The Department 
has been coordinating with our allies on directed energy (at both 
unclassified and classified levels) for well over two decades. 
Recently, coordination has been expanded, primarily because of 
advancements in High Energy (Electric) Lasers and Radio-Frequency 
Weapons science and technology. In addition, the increasingly 
constrained fiscal environment provides strong impetus to coordinate 
with allies who are able to advance directed energy technology. The 
mechanisms used for this coordination are: (1) bilateral agreements; 
(2) NATO-Research and Technology (RTO) System Concept & Integration 
(SCI) Panel work; and (3) an Action Group under The Technology 
Cooperation Program (TTCP). In fact, the Science and Technology 
Executives of the United States, United Kingdom, Canada, Australia, and 
New Zealand, established this last group in the fall of 2012. The 
nature of the coordination may change in scope, as technology matures 
and/or budgets change, but the personnel contacts are in place, and 
they are actively engaged in exploring avenues for further cooperation.
    Mr. Langevin. How concerned are you about the DOD's STEM education 
pipeline? In your views, is DOD doing enough to nurture the next 
generation of STEM professionals?
    Mr. Shaffer. [The information was not available at the time of 
printing.]

    Mr. Langevin. Relating to the health of the DOD Labs and R&D 
Workforce, how would you characterize the health of these areas, 
particularly as we factor in the effects of sequestration?
    Mr. Shaffer and Dr. Prabhakar. While the Department currently has 
both good laboratories and a strong R&D workforce, I do have some 
concerns about the future health of the labs and most importantly, the 
health of the lab R&D workforce. As will be seen in the DOD Human 
Capital Workforce Strategic Plan, the overall workforce continues to 
age and impending retirements of key personnel remains a concern. We 
surveyed each of our labs and found lab directors are concerned about 
the potential loss of leading scientists and engineers in areas of 
critical need to their labs. Normally loss of senior or essential S&Es 
is troublesome but given the authorities granted to the Science and 
Technology Reinvention Laboratories (STRLs), directors can plan for the 
replacement of retirees or quickly hire to replace an unexpected loss. 
However, these are not normal times. With the prolonged pay freeze, 
travel restrictions, limitations on conference attendance, and 
potential reductions in force, the retention and hiring of S&Es is 
growing more difficult. As the national economy improves, defense labs 
may not be able to compete for top talent nor will they be able to 
retain their best S&Es.
    Our laboratories represent a unique personnel element of the 
Department. To ensure they can stay on the leading edge of science, 
technology and engineering developments, they depend on the ability to 
travel to professional meetings, maintain their labs with essential 
equipment, have access to technical journals and other items considered 
essential in the routine performance of technical work. Many of these 
activities have simply been lost or are no longer available because of 
the restricted budgets. These facts along with those stated above could 
result in an overall decline in the technical health of our labs.

    Mr. Langevin. Relating to the health of the DOD Labs and R&D 
Workforce, how would you characterize the health of these areas, 
particularly as we factor in the effects of sequestration?
    Ms. Miller. The Army laboratories are, on average, 50 years old 
with minor facility functional/configuration deficiencies that have 
minimal impact on the capability to support the organizations' required 
missions. Sequestration will have a direct impact on the laboratories 
as the amount of sustainment, restoration, and modernization funding 
available to the laboratories is reduced.
    The average age of the Research and Development workforce is 45 
years old. Periods of budget uncertainty to include sequestration are 
having a negative impact on our ability to recruit and retain the best 
scientists and engineers. Compounding this uncertainty with a reduction 
in the ability to travel and restrictions on conference attendance has 
been especially harmful to the professional development of younger 
scientists and engineers and is already resulting in their departure 
from our Government labs.
    Mr. Langevin. Certainly we are not the only nation that is 
concerned about the advanced A2/AD threats. In your views, are we doing 
enough coordination with our allies on research and development of 
directed energy systems?
    Ms. Miller. Yes, the Army is working with many of our allies on 
research and technology development of directed energy systems. The 
Army has periodic technical discussions and interactions on directed 
energy topics of mutual interest with the United Kingdom, Canada and 
Australia in coordination with the U.S. Navy, Air Force, and the 
Assistant Secretary of Defense for Research and Engineering High Energy 
Laser Joint Technology Office (HEL JTO). The Army is working with the 
North Atlantic Treaty Organization to define current, near term, and 
far term directed energy capabilities for High Power Microwaves (HPM) 
and Lasers as well as non-lethal capabilities for the dismounted 
soldier.
    The Army has been working with Japan, Germany, and Israel in the 
High Energy Laser area and recently contributed to a HEL JTO-led 
assessment of Germany's thin disc laser technology. The Army is working 
with Japan and South Korea on non-nuclear electro-magnetic pulse 
technologies and components in support of explosive pulsed power HPM. 
The Army also is working with Sweden to investigate the susceptibility 
of counter-mine/counter-improvised explosive device systems to radio 
frequency and HPM waveforms.
    Mr. Langevin. As you know, this subcommittee has authorized several 
pieces legislation over the past 5 years intended to improve the health 
of the laboratories. Section 219 in the FY09 NDAA authorized the use of 
funds to support various local initiatives. We also reauthorized and 
raised the spending limits in the Laboratory Revitalization 
Demonstration Project (LRDP) which is intended to support minor milcon 
projects. Could you tell the committee how you use 219 and LRDP to 
improve the conditions of your labs. More importantly, please let us 
know where we might improve on those authorities.
    Ms. Miller. The expansion of the Section 219 authority that 
included minor military construction as one of the acceptable 
categories of use has allowed the laboratories to fund 27 projects 
related to their core competencies across six laboratories. These 
projects, using the LDRP authority, range from the construction of 
additional research space to building modifications made to address 
safety concerns. Full details on the Army's use of Section 219 funds 
are available in the annual Report to Congress, which was delivered to 
the Congressional Defense Committees by the Office of the Secretary of 
Defense on April 10, 2013.
    At this time, no additional authorities are sought as the 
organizations continue to exercise the existing flexibilities 
authorized via Section 219. The Army looks forward to working with 
Congress to review any proposed changes to the Section 219 
authorization.
    Mr. Langevin. How concerned are you about the DOD's STEM education 
pipeline? In your views, is DOD doing enough to nurture the next 
generation of STEM professionals?
    Ms. Miller. The Army is concerned with the growing demand on 
science, technology, engineering and mathematics (STEM) competencies, 
the global competitiveness for STEM talent, and the unbalanced 
representation of our nation's demographics in STEM fields. The Army is 
not only concerned with the percent of Army Science and Technology 
occupations requiring STEM skilled talent, but also with the workforce 
as a whole, which is dependent on STEM competencies that are in demand 
both within and outside traditional STEM occupations. The Army, through 
the Army Educational Outreach Program (AEOP), continues to address 
building the pipeline of STEM professionals by providing our future 
generation access to Army unique capabilities, which include our 
technical STEM professionals and research facilities. To effectively 
nurture the next generation of STEM professionals, the objective of 
AEOP is to develop a diverse, agile and highly competent STEM talent 
pool, representative of our nation's demographics, that supplies the 
Army and the broader Defense Industrial Base workforce initiatives.

    Mr. Langevin. Relating to the health of the DOD Labs and R&D 
Workforce, how would you characterize the health of these areas, 
particularly as we factor in the effects of sequestration?
    Admiral Klunder. The DON has historically made deliberate and 
measured investments to ensure stability within the organic workforce 
to ensure continuity of technical capabilities. The DON has emphasized 
having our Laboratories and Warfare Centers actively engaged during the 
early development stage. Over the last year the DON has performed an 
extensive strategic review of our research, development, test, and 
evaluation (RDT&E) resources, including Laboratory and Warfare Center 
technical workforce and their critical infrastructure. This baseline of 
the `as is' technical capabilities and capacities of our Laboratory and 
Warfare Center infrastructure will enable an integrated assessment of 
the RDT&E capabilities. We will use this assessment to prioritize our 
investments in this period of tightening
budgets.
    Mr. Langevin. Certainly we are not the only nation that is 
concerned about the advanced A2/AD threats. In your views, are we doing 
enough coordination with our allies on research and development of 
directed energy systems?
    Admiral Klunder. Yes, we are working with our allies on research 
and development of directed energy systems. The U.S. Navy coordinates 
their directed energy weapons science and technology research, as with 
many extracurricular initiatives, through the Navy International 
Programs Office (NIPO), as a part of the Office of Naval Research (ONR) 
Global outreach program. Separate meetings have been held in 2013 with 
representatives from the Ministry of Defense (MoD) offices from the 
United Kingdom, Australia, and Japan. While additional coordination is 
potentially possible, the limited requirements for other countries to 
address advanced A2/AD threats seen by U.S. Forces, and their relative 
immaturity of DE Technologies, suggests sufficient coordination is and 
shall occur within the ONR Global program in both the near term, and 
longer terms.
    Mr. Langevin. As you know, this subcommittee has authorized several 
pieces legislation over the past 5 years intended to improve the health 
of the laboratories. Section 219 in the FY09 NDAA authorized the use of 
funds to support various local initiatives. We also reauthorized and 
raised the spending limits in the Laboratory Revitalization 
Demonstration Project (LRDP) which is intended to support minor milcon 
projects. Could you tell the committee how you use 219 and LRDP to 
improve the conditions of your labs. More importantly, please let us 
know where we might improve on those authorities.
    Admiral Klunder. Section 219 has allowed the Naval Laboratory and 
Warfare Centers to revitalize and refresh technical capabilities 
through hands-on basic and applied research initiatives, pre-milestone 
``A'' technology transition and workforce development. Under workforce 
development it has allowed scientists and engineers to pursue advanced 
degrees, certifications, mission critical training, and has allowed the 
Navy to recruit and retain top technical talent.
    It has enabled our laboratory directors to focus technical 
resources on technology transition opportunities where a warfighter 
need has been identified. The DON is continuing to investigate the most 
effective way to use the minor military construction (MILCON) 
authority. Under workforce development many warfare centers pursue 
projects which group under an area entitled ``strategic growth'' which 
is adding new laboratory capabilities. In this area, projects are often 
reviewed with the Capital Improvement Proposals (CIP) to see how SEC 
219 might complement the effort. For instance, SEC 219 funds the major 
equipment purchase and associated training while CIP funds the 
infrastructure and construction of the required spaces. Examples of 
growth areas and new labs funded in this manner include: labs devoted 
to scanning electron microscope, biaxial testing of composites, and 
noise measurements and Naval Power Avionics and Thermal (NPATH) 
Laboratory Development, Integration, Analysis and Testing. As the 
program continues to mature, we anticipate more opportunities to use 
this authority.
    Over the last several years, the DON has been able to grow and 
mature the Section 219 program so that it has become a critical, 
reliable and discretionary source of investment in areas most critical 
to understand the technical dimensions of near, mid and far term 
military challenges. We want to thank you for extending the sunset 
clause until 2016 and encourage you to make this a permanent 
authorization.
    Mr. Langevin. How concerned are you about the DOD's STEM education 
pipeline? In your views, is DOD doing enough to nurture the next 
generation of STEM professionals?
    Admiral Klunder. We are concerned about the DOD STEM education 
pipeline. The Department of the Navy (DON) is working in coordination 
with DOD and national initiatives in STEM. Our plan is to engage early 
and often, especially in areas where we project shortfalls and in 
communities that are underrepresented. The DON plans to continue its 
investment in a broad range of STEM education programs aimed at 
strengthening the DON's future S&T workforce. Engaging students across 
the education spectrum is critical to ensure that we have ample 
pipelines of future STEM talent. The majority of DON STEM investments 
are at the college through post-doctoral levels. Programs provide 
naval-relevant research and employment opportunities to students likely 
to pursue a career within the DON or DOD industry. Efforts include 
internships, scholarships and research fellowships often located at 
naval labs and warfare centers.

    Mr. Langevin. Relating to the health of the DOD Labs and R&D 
Workforce, how would you characterize the health of these areas, 
particularly as we factor in the effects of sequestration?
    Dr. Walker. The Air Force recognizes the importance of innovation 
and has therefore continued to invest in science and technology even 
during these times of budgetary constraints to ensure that the future 
balance of power remains in our favor. The health of the Air Force 
Research Laboratory (AFRL) infrastructure and scientist and engineer 
(S&E) workforce is good.
    The laboratory infrastructure is a cornerstone for enabling the 
required research and development necessary to maintain U.S. 
technological superiority. The 2005 Base Realignment and Closure (BRAC) 
effort successfully completed in September 2011 and provided several 
new, state-of-the-art facilities within AFRL. The Air Force has also 
used the authorities granted by Section 219 of the Duncan Hunter 
National Defense Authorization Act for Fiscal Year (FY) 2009, as 
amended by Section 2801 of the National Defense Authorization Act for 
FY 2010, to fund upgrades to internal AFRL facilities. A recent 
analysis of AFRL infrastructure as directed by Senate Report 112-173 to 
accompany the National Defense Authorization Act for Fiscal Year 2013 
concluded that 90 percent of AFRL-occupied assets are classified as at 
least ``Good'' or ``Fair'' according to DOD criteria. The Air Force 
continues to be vigilant and upgrades S&T infrastructure in a timely 
manner so that major research and programs are not put at risk due to 
aging facilities. Maintaining high-quality laboratory facilities is 
critical to remaining on the cutting edge of S&T and supporting the 
innovation necessary for the future. Having the most state-of-the-art 
laboratory facilities is futile without the right people to conduct the 
research inside the walls. The success of the Air Force S&T Program 
depends on an agile, capable workforce that leads cutting-edge 
research, explores emerging technology areas, and promotes innovation 
across government, industry and academia.The Air Force must attract, 
access and retain our nation's best and brightest, and equip them 
through education, training and experience. The Air Force continues to 
execute the Bright Horizons STEM workforce strategic roadmap published 
in 2011. This roadmap addresses the ``people'' dimension of delivering 
and operating required technology by having the right STEM qualified 
people in the right place, at the right time, and with the right 
skills.
    The total impact of sequestration in FY13 and beyond remains 
unclear for the Air Force S&T enterprise at this time; however, there 
are currently research efforts which are being delayed, re-scoped or 
terminated. The Air Force will continue to diligently monitor the 
health and status of the laboratory infrastructure and workforce and 
ensure the Air Force is poised to retain superiority in air, space and 
cyberspace.
    Mr. Langevin. Certainly we are not the only nation that is 
concerned about the advanced A2/AD threats. In your views, are we doing 
enough coordination with our allies on research and development of 
directed energy systems?
    Dr. Walker. Yes. The Air Force coordinates research with U.S. 
Allies in several areas of directed energy components such as fiber 
lasers and other types of solid state lasers. In fact, the Air Force 
relies on Allies for some of these unique components and materials. Due 
to classification restrictions, further detail on directed energy 
coordination cannot be provided in this response.
    Mr. Langevin. How concerned are you about the DOD's STEM education 
pipeline? In your views, is DOD doing enough to nurture the next 
generation of STEM professionals?
    Dr. Walker. Nurturing the next generation of STEM professionals is 
an Air Force, DOD and National concern. There is a worldwide 
competition for STEM talent. The Air Force recognizes it is critical 
for us get out into the local communities and encourage students to 
study math and science. The U.S. Air Force is the most technologically 
advanced air force in the world; therefore recruiting, retaining and 
developing a STEM workforce is a top priority. Innovative and 
technically-savvy Airmen are our most important asset.
    To this end, the Air Force has successfully used tools such as the 
Science, Mathematics, and Research for Transformation (SMART) 
Scholarship Program. Over the past eight years, the Air Force has 
averaged providing 60 scholarships per year to scientists and 
engineers. After payback of the recipient's commitment, the Air Force 
has retained 88 percent of scholars in Air Force jobs. In addition, the 
Information Assurance Internship provided through authorities granted 
in Section 219 of the 2009 National Defense Authorization Act, annually 
funds 10 to 20 college juniors and seniors in STEM disciplines to study 
the science of information assurance and information warfare on Air 
Force problems.
    The Air Force also continues to execute the Bright Horizons STEM 
workforce strategic roadmap published in 2011. This roadmap addresses 
the ``people'' dimension of delivering and operating required 
technology by having the right STEM qualified people in the right 
place, at the right time, and with the right skills.

    Mr. Langevin. Certainly we are not the only nation that is 
concerned about the advanced A2/AD threats. In your views, are we doing 
enough coordination with our allies on research and development of 
directed energy systems?
    Dr. Prabhakar. Yes. DARPA, in concert with the Department of 
Defense, has been coordinating with our allies on Directed Energy (at 
both unclassified and classified levels) for well over two decades. 
Recently, coordination has been expanded primarily because of 
advancements in High Energy (Electric) Lasers and Radio-Frequency 
Weapons Science and Technology (S&T), and because of the constrained 
fiscal environment. The mechanisms used for this coordination are: (1) 
bilateral agreement; (2) NATO-Research and Technology (RTO) System 
Concept & Integration (SCI) Panel work; and (3) Action Group under The 
Technology Cooperation Program (TTCP). The nature of the coordination 
may change in scope, as technology matures and/or budgets and 
priorities change, but the personnel contacts are in place and actively 
engaged to accommodate change.
    Mr. Langevin. How concerned are you about the DOD's STEM education 
pipeline? In your views, is DOD doing enough to nurture the next 
generation of STEM professionals?
    Dr. Prabhakar. [The information was not available at the time of 
printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
